<html>
<title> - CONSUMER PRODUCT SAFETY COMMISSION OVERSIGHT: CURRENT ISSUES AND A VISION FOR THE FUTURE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
  CONSUMER PRODUCT SAFETY COMMISSION OVERSIGHT: CURRENT ISSUES AND A 
                         VISION FOR THE FUTURE

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON COMMERCE, TRADE,
                        AND CONSUMER PROTECTION

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 10, 2009

                               __________

                           Serial No. 111-63


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
74-096                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3057405f705345434458555c401e535f5d1e">[email&#160;protected]</a>  


                    COMMITTEE ON ENERGY AND COMMERCE

                 HENRY A. WAXMAN, California, Chairman

JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JANICE D. SCHAKOWSKY, Illinois       SUE WILKINS MYRICK, North Carolina
CHARLES A. GONZALEZ, Texas           JOHN SULLIVAN, Oklahoma
JAY INSLEE, Washington               TIM MURPHY, Pennsylvania
TAMMY BALDWIN, Wisconsin             MICHAEL C. BURGESS, Texas
MIKE ROSS, Arkansas                  MARSHA BLACKBURN, Tennessee
ANTHONY D. WEINER, New York          PHIL GINGREY, Georgia
JIM MATHESON, Utah                   STEVE SCALISE, Louisiana
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA CHRISTENSEN, Virgin Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE BRALEY, Iowa
PETER WELCH, Vermont

                                  (ii)


        Subcommittee on Commerce, Trade, and Consumer Protection

                        BOBBY L. RUSH, Illinois
                                  Chairman
JAN SCHAKOWSKY, Illinois             CLIFF STEARNS, Florida
    Vice Chair                            Ranking Member
JOHN SARBANES, Maryland              RALPH M. HALL, Texas
BETTY SUTTON, Ohio                   ED WHITFIELD, Kentucky
FRANK PALLONE, New Jersey            GEORGE RADANOVICH, California
BART GORDON, Tennessee               JOSEPH R. PITTS, Pennsylvania
BART STUPAK, Michigan                MARY BONO MACK, California
GENE GREEN, Texas                    LEE TERRY, Nebraska
CHARLES A. GONZALEZ, Texas           MIKE ROGERS, Michigan
ANTHONY D. WEINER, New York          SUE WILKINS MYRICK, North Carolina
JIM MATHESON, Utah                   MICHAEL C. BURGESS, Texas
G.K. BUTTERFIELD, North Carolina
JOHN BARROW, Georgia
DORIS O. MATSUI, California
KATHY CASTOR, Florida
ZACHARY T. SPACE, Ohio
BRUCE BRALEY, Iowa
DIANA DeGETTE, Colorado
JOHN D. DINGELL, Michigan (ex 
    officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     1
Hon. George Radanovich, a Representative in Congress from the 
  State of California, opening statement.........................     3
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     5
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, opening statement.......................................     6
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, opening statement.................................     7
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     9
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................    10
Hon. Steve Scalise, a Representative in Congress from the State 
  of Louisiana, opening statement................................    10
Hon. Kathy Castor, a Representative in Congress from the State of 
  Florida, opening statement.....................................    11
Hon. Joseph R. Pitts, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................    12
Hon. Bruce L. Braley, a Representative in Congress from the State 
  of Iowa, opening statement.....................................    13
Hon. Betty Sutton, a Representative in Congress from the State of 
  Ohio, opening statement........................................    14
Hon. Diana DeGette, a Representative in Congress from the State 
  of Colorado, opening statement.................................    15
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, prepared statement......................................    44
Hon. Cliff Stearns, a Representative in Congress from the State 
  of Florida, prepared statement.................................    46
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, prepared statement.............................    47
Hon. Phil Gingrey, a Representative in Congress from the State of 
  Georgia, prepared statement....................................    50

                               Witnesses

Inez Moore Tenenbaum, Chairman, Consumer Product Safety 
  Commission.....................................................    16
    Prepared statement...........................................    18
    Answers to submitted questions...............................   219

                           Submitted Material

Letters from 5 consumer groups to Mr. Rush.......................    55
Letters from over 100 constituents, submitted by Mr. Radanovich..    66
Letter of March 4, 2009, from Mr. Dingell to CPSC................   188
    Response from former Chairman Nord...........................   193
    Response from Commissioner Moore.............................   217


  CONSUMER PRODUCT SAFETY COMMISSION OVERSIGHT: CURRENT ISSUES AND A 
                         VISION FOR THE FUTURE

                              ----------                              


                      THURSDAY, SEPTEMBER 10, 2009

              House of Representatives,    
           Subcommittee on Commerce, Trade,
                           and Consumer Protection,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:10 a.m., in 
Room 2322 of the Rayburn House Office Building, Hon. Bobby Rush 
[Chairman of the Subcommittee] presiding.
    Members present: Representatives Rush, Schakowsky, 
Sarbanes, Sutton, Stupak, Green, Barrow, Castor, Braley, 
DeGette, Dingell, Waxman (ex officio), Radanovich, Whitfield, 
Pitts, Gingrey, Scalise, and Barton (ex officio).
    Staff present: Michelle Ash, Chief Counsel; Anna Laitin, 
Professional Staff Member; Tim Robinson, Counsel; Angelle 
Kwemo, Counsel; Will Casey, Special Assistant; Miriam Edelman, 
Special Assistant; Jeff Wease, Deputy Information Officer; 
Lindsay Vidal, Press Assistant; Brian McCullough, Minority 
Senior Professional Staff Member; Shannon Weinberg, Minority 
Counsel; Will Carty, Minority Professional Staff Member; and 
Sam Costello, Minority Legislative Analyst.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. The subcommittee will come to order. Good 
morning, members and also the commissioner and all of the other 
folk who are gathered in the room. This subcommittee is called 
to order now for the purposes of an Oversight Hearing on 
Current Issues and a Vision for the Future for the Consumer 
Product Safety Commission, and I welcome everyone to this 
hearing. The Chair now without any other delays, the Chair 
recognizes himself for 5 minutes for the purposes of an opening 
statement.
    The Consumer Product Safety Improvement Act was one of the 
premier accomplishments of the 110th Congress. The law created 
basic safety standards for keeping toxic lead and phthalates 
out of children's products, engaging Consumer Product Safety 
Commission vital new resources and authority, and establishing 
a product testing system that would ensure product safety.
    I would like to welcome Chairman Inez Tenenbaum, who is the 
ninth Chairman of the Consumer Product Safety Commission. She 
hails from the great State of South Carolina. Chairman 
Tenenbaum is nationally known and is an advocate for children 
and families. She served with distinction as the State of South 
Carolina's Superintendent of Education for two terms. I am 
looking forward to seeing and hearing from Chairman Tenenbaum 
as she steers the process of implementing the CPSIA. Under her 
leadership, the needed implementation will go far more smoother 
than other previous chairmen and the CPSC will work effectively 
utilizing the increased resources that are now at its disposal. 
This is why I am so pleased to welcome Chairman Tenenbaum today 
and to hear from her about the Commission's new direction and 
its future vision.
    It is mentionable that the Chairman now has a full 
complement of commissioners, something which it lacked for far 
too long under the previous administration. I think that the 
President has chosen well in nominating Robert S. Adler and 
Anne Northup as commissioners. Commissioner Adler has a deep 
history of experience as a former advisor to two CPSC 
commissioners, Commissioners Pittle and Steorts.
    Commissioner Northup is the former Congresswoman from 
Kentucky's third district and the mother of six, who served for 
9 years in the House of Representatives. As a congresswoman, 
Commissioner Northup founded the House Reading Caucus and co-
chaired the Congressional Coalition on Adoption which further 
shows her own personal commitment to helping and defending 
children.
    Madam Chair, when you took the helm you showed great 
courage, sound judgment and a purpose for rulemaking over our 
safety. One of the first agenda items that you scheduled was 
whether to include crystal and glass beads in children's 
jewelry from the lead content restrictions in Section 101(a) of 
the CPSIA. You applied the facts as you found them to the CPSI 
lead limits and to the real world facts and foreseeable 
possibilities. For example, you talked and wrote about how 
children handled and played with this jewelry by mouthing, 
ingesting and swallowing the beads and how any amount of lead 
constituted too much lead in these beads. You are willing to 
grapple with thorny issues and the business of our Pacific Rim 
trading products who today manufacture as much as 85 percent of 
our toys and 95 percent of our solvents, and almost 60 percent 
of our electrical products, shows your leadership and your 
vision. Unfortunately, more than 85 percent of our country's 
recalled products are also imported.
    Chairman Tenenbaum, I will ask you questions this morning 
based on remarks you have made in your public statements on 
some substantive areas that pose special safety and recalled 
challenges and how you will go about implementing the CPSIA. I 
am also very interested in hearing how you see the CPSIA's 
transitioning from the Nord-era to Tenenbaum-time. We will look 
for a shiny, new product safety product testing facility with 
more employees and more appropriated dollars.
    And as I close, I want you to comment as succinctly as you 
can about the CPSC's timeline for adopting new rules under 
CPSIA, about some of the things that the GAO advised us and 
other improvements that you will make at the agency. I look 
forward to hearing your testimony and I thank you again for 
visiting with us today.
    Mr. Rush. The Chair now recognizes the ranking member, Mr. 
Radanovich for 5 minutes.

 OPENING STATEMENT OF HON. GEORGE RADANOVICH, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Thank you, Chairman Rush, for calling this 
important hearing today.
    The CPSC is a small but important agency whose mission is 
implementing and enforcing our nation's Federal Consumer 
Protection Safety Laws. The Commission and its staff work hard 
to ensure consumer products are safer when they reach the homes 
of our constituents.
    We all remember the increase in commission-mandated recalls 
in 2007. Weekly headlines detailed various toy dangers, most of 
which were due to manufacturers' failure to comply with 
existing standards, for instance, lead paint. To their credit, 
the Commission's staff was able to affect more recalls in 2007 
than in any other year in the CPSC history and despite the 
Commission's diligence, some observers claim the increase in 
recalls was evidence that reform was necessary and spurred the 
enactment of the Consumer Product Safety Improvement Act, also 
known as CPSIA.
    CPSIA instituted the most sweeping changes to the 
Commission's regulatory environment since it was created. Among 
the changes, the law imposes many new requirements on 
businesses in the name of providing greater assurances that 
consumer products reaching our ports and placed on our store 
shelves are safer. While no one disagrees with creating safer 
products and it is good for public policy, we don't all agree 
on how to get there. The law has had consequences detrimental 
to many hardworking Americans. Put simply, the law is not 
working the way that many of us thought that it should work.
    In April, hundreds of business owners that want to abide by 
the law came to Washington and voiced their concerns. The new 
law is crippling many honest businesses, particularly small 
businesses with burdensome and costly testing requirements for 
children's products, many of which the evidence shows are 
completely safe, and despite the Commission's stays of 
enforcement protecting many manufacturers are still being 
required to prove that their products are CPSIA compliant. As a 
result, testing for perfectly safe products is costing 
businesses millions of dollars, inventory losses for safe but 
technically noncompliant products is estimated in the billions 
and there is no discernible improvement in child safety.
    Many small and home-based businesses are already hurting 
from the economic recession. On top of the decrease in consumer 
spending, manufacturers and retailers are now faced with the 
new cost of complying with CPSIA and if they can comply at all. 
Many of these same small and medium-size businesses will also 
suffer punitive effects of the cap and trade legislation passed 
by the House and the healthcare legislation this committee 
reported out last month.
    We committed nearly $1 trillion in stimulus spending for 
various industries, bailed out the auto industry, bailed out 
financial firms, bailed out homeowners and helped purchase new 
cars for some consumers, but where is the relief for small 
businesses who we now burden with this regulation. These small 
businesses are beginning to think that Congress is waging war 
against them. Providing sensible regulatory relief to those 
affected by CPSIA would be a no-cost stimulus for the very 
businesses we are counting on to create new jobs and to bring 
us out of an economic recession, and it is the right thing to 
do.
    The biggest problem with CPSIA I see is that it doesn't 
distinguish between risky and safe products. The law strips the 
Commission of discretion in granting CPSIA exemptions for 
children's products. The Commission confirmed this 
interpretation of the law when it voted to deny exemption 
petitions because the law simply does not permit exemptions if 
any lead can possibly be absorbed, even if the staff believes 
the products are not harmful. This standard is more stringent 
than the FDA's limits for milk and for water, the water our 
children drink.
    The law is not only impacting businesses, it is also 
straining the Commission's resources as they process the 
thousands of comments, petitions, rulemakings and other CPSIA-
related actions. The Commission has done the best it can with 
the resources that the appropriators granted to increase its 
staff in order to meet the stringent deadlines required by law, 
but it has not received everything we authorized and therefore, 
needs relief from these tight timelines.
    I commend the Commission for finding creative ways to 
provide some relief to businesses with a few commonsense 
exemptions and stays of enforcement. Unfortunately, some of 
these actions are only temporary and they don't address the 
bulk of the problems, but the highlight of the recognition that 
compliance with the law as written is impossible for many 
businesses, and it won't improve safety. I am disappointed that 
we will not hear from any witnesses from the many businesses 
adversely affected by the new law, but I look forward to a 
robust conversation with the new Chairman on these matters.
    Mr. Chairman, I appreciate your desire to conduct this 
oversight hearing into the Commission's priorities under a new 
administration. It is clear that the top priority for all of us 
should be to fix the law that we wrote so that it works for 
everybody. A one-size-fits-all approach is not working and will 
not improve safety. The time has come for us to work together 
and fix the problem by restoring flexibility for the Commission 
to determine what presents a real risk to children's safety, 
and appropriately target those risks and I stand ready to work 
with you on this, Mr. Chairman, and I welcome Chairman 
Tenenbaum to the committee. Thank you.
    Mr. Rush. Thank you. The Chair now recognizes the Chairman 
of the full committee, Mr. Waxman, for 5 minutes for the 
purposes of opening statement.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman, for holding 
this important oversight hearing and I want to welcome Chairman 
Tenenbaum to this hearing today, as well.
    Last year Congress enacted the truly historic legislation 
on product safety. Our product safety system--and especially 
our toy safety system--was terribly broken. We saw record 
recalls and the total loss of consumer confidence in the safety 
of products, and children were killed and horribly injured by 
defective and dangerous products, and the stories were 
shocking. The situation was unacceptable to the American people 
and Congress responded. Following a lengthy and careful 
process, we enacted legislation that is strong, well-designed 
and effective.
    The law bans lead in children's products, a step that is 
decades overdue. There is no safe level of lead and no reason 
that children should be exposed to lead in their toys. The law 
establishes a safety net for product safety that many consumers 
already assumed was in place. For the first time under this 
law, manufacturers need to demonstrate their products are safe 
before they can be sold. The law bans phthalates in certain 
children's products in recognizing science that shows these 
chemicals to be dangerous, especially to the youngest and most 
vulnerable children.
    And finally, the law addresses systemic problems at CPSC to 
provide them with stronger legal authorities to carry out their 
mission and additional funding for the agency, and we restored 
the Commission to its full size of five commissioners. This is 
a key step that enables the Commission to carry out its 
critical mission after years of neglect and dysfunction. So in 
short, the law is a good, strong one and it vastly improves our 
children's health and safety.
    Now that we are a year away from the recalls, the most 
dramatic stories have left the front pages, some suggest that 
we don't really need such a strong law but the fact remains 
that the system we had in place was a failure. This law was 
necessary. To retreat now from the proven consumer protections 
achieved under this law would be a huge mistake. There is no 
question however, that implementation has at times been uneven. 
Since the law went into affect, there has been unnecessary and 
widespread confusion among businesses and consumers, and I am 
committed to working with the Commission and with interested 
members of Congress and to you particularly, Mr. Chairman, to 
assure that moving forward, implementation of the law is clear 
and comprehensible.
    And that is why I am very pleased that Ms. Tenenbaum is 
here and we will hear from her about her plans for the 
Commission and for the law. I have great confidence in the 
Chairman together with the other four commissioners that they 
will restore the agency to one capable of carrying out this law 
and its entire mission effectively and efficiently. I look 
forward to hearing the Chairman's testimony and I look forward 
to engaging in a productive relationship with leadership that 
is truly committed to protecting all consumers, especially our 
children.
    Thank you, Mr. Chairman.
    Mr. Rush. The Chair now recognizes the ranking member of 
the full committee, the gentleman from Texas, Mr. Barton, for 5 
minutes.

   OPENING STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Barton. Thank you, Mr. Chairman, and thank you, 
Chairwoman, for being here.
    I voted for the bill last year. I was on the conference 
committee along with Chairman Waxman and Mr. Dingell and Mrs. 
Schakowsky and others so I am a supporter of the bill. Having 
said that, I listened with some astonishment to what our 
distinguished Chairman, Mr. Waxman, just said. I interpret what 
he said to mean that it's just a problem with implementation. 
It is not a problem with implementation.
    As you have said, Madam Chairwoman, the law doesn't give 
you the flexibility to do some of the things that you have been 
encouraged to do to implement the law. We need to change the 
law. We need to perfect it. We need to modify it. We need to 
give some flexibility and some discretion to your agency to 
implement this law.
    I and Mr. Radanovich and others have repeatedly asked 
Chairman Waxman to hold a markup or work with us on a 
bipartisan basis to come up with a bill to fine tune the law 
that we passed last year. We started making those requests 
informally in January. Today is a hearing which is a good step, 
but that is all this is. It is a hearing. We need to do more, 
in my opinion, than hold a hearing. I have got right here--I 
would say that is 200 letters, maybe 150 of small businesses 
around this country that have written to myself and to the 
Chairman and other members of the committee to do something to 
fine-tune the law.
    Mr. Radanovich is going to ask unanimous consent at some 
point in time to put those letters in the hearing record. We 
have products before us. The dress that is in front of Mr. 
Radanovich can't be tested because if you test it, it destroys 
it. These products are going to be pulled off the shelves 
because the cost of the test is more than the value of the 
products that are sold. There should be some commonsense 
implementation, some commonsense refinement. We are not trying 
to change the lead standard. We are not trying to backpedal on 
the intent of the law, but when you can't sell an all-terrain 
vehicle because of concern that a child is going to ingest the 
tailpipe or something like that, there needs to be some 
discretion given to the regulatory agency to use a commonsense 
approach to implementing the regulations.
    So, Mr. Chairman, I am glad that you are holding this 
hearing. I am going to submit my formal statement for the 
record. I hope it doesn't--I know you are a White Sox fan and 
not a Cubs fan, but I hope it doesn't take the Cubs winning the 
pennant before we decide to act to change this bill. You know, 
we need--and the good news is that what we have done, it is not 
that difficult, and that it can be done in a bipartisan basis, 
and it can be moved out of committee, and it can be moved to 
the House and the other body for the President to sign in the 
next 2 to 3 months. I mean, this is not a huge mountain that we 
are trying to overcome and there is not--if we get past the 
insistence that it is a perfect bill and it is like the Ten 
Commandments, you can't change a letter even in any of the Ten 
Commandments, we can get this done, and I hope that is what 
this hearing is about is finding a way to get it done.
    With that, Mr. Chairman, I yield back.
    Mr. Rush. The Chair wants to thank the ranking member and 
wants to ensure the ranking member that we will get something 
done before the Aggies win the BCS.
    Mr. Barton. It could happen, Chairman.
    Mr. Rush. The Chair now recognizes the Chairman Emeritus of 
the full committee, my friend from Michigan, Mr. Dingell, for 5 
minutes.

OPENING STATEMENT OF HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. Mr. Chairman, I commend you for holding 
today's hearing. It is an important one. I would like to extend 
my warm regards and welcome to Chairman Tenenbaum and I would 
like to thank her for appearing before us today to discuss 
issues facing her agency and her vision of the agency's future.
    I want to make it very clear, Mr. Chairman, this hearing is 
needed. It is oversights in the way that it should be conducted 
and again I commend you for it.
    A long time ago, a dear friend of mine by the name of John 
Moss, then a member of this committee, and I in this room held 
a series of hearings which led to the enactment of legislation 
creating the consumer product safety which he and I and other 
members were co-sponsoring. Last year, my dear friend, the 
ranking Republican member of this committee, and I got together 
with other members of this committee including you, Mr. 
Chairman, all in a sense of concern about the fact the Consumer 
Product Safety Commission was not able to do its job because of 
budget cuts, personnel cuts, demoralization, the inadequacy of 
researchers and personnel to do its job. And from that came the 
successor Act to the original Consumer Product Safety Act which 
was passed in '72, and which returned it somewhat, and the 
Commission somewhat, to the state that it had had at the time 
that we offered the first legislation.
    Now, I want to make it very clear that as the original 
author or the remaining original author of the Consumer Product 
Safety Act and the author of last year's legislation, I feel 
very strongly about the needs for strong protection for the 
nation's consumers. And I feel very keenly that the Consumer 
Product Safety Commission who has not been able to do its job 
because of the deregulatory attitude and a skimpy attitude with 
regard to funding in the nation's regulatory agencies. And so 
with my colleagues on this committee, I wholeheartedly 
supported a restoration of a good regulatory framework to 
ensure the safety of consumer products distributed in the 
commerce of the United States, particularly those meant for use 
by children. And that is the feeling which I shared with my 
colleagues on this committee and we tried to see to it not only 
did they get the authorities and use the authorities which they 
had at the CPSC but also that they got the researchers which 
had been permitted to shrivel in a most lamentable fashion. 
Indeed, to laughable proportions compared with those of other 
federal regulatory agencies so that the agency was in effect 
completely neutered and incapable of doing its business but we 
thought we had corrected that, and I would note that until 
recently CPSC might well have been described as a moribund 
agency, hampered by inadequate funding and all too limited 
statutory mandates.
    For these reasons, we did what we did in terms of the 
Consumer Product Safety Improvement Act, CPSIA, which I have 
alluded to earlier which was ultimately signed into law by 
President Bush last August. CPSIA is meant to bolster the 
agency and to enhance its authorities in order to improve 
CPSC's ability to carry out its fundamental purpose, again the 
protection of consumer health and safety.
    It should be noted though that a funny thing happened on 
the way to the forum. Our dear colleagues on the other end of 
the building called the United States Senate got into the act 
and with profound ignorance of the way the law worked or the 
intention of this committee and the authors of the legislation, 
proceeded to do extensive redrafting and it created 
difficulties which we were unable to cure in the conference 
between the House and the Senate. We had abundant outside 
assistance which confused the issues further, from consumer 
representatives and enthusiasts who did not know how government 
works or how government should work, and we had considerable 
messing around from both the Senate and from this body which 
has created confusions which remain today.
    Now, I remain concerned about the difficulties that have 
been encountered in the implementation of the CPSIA as improved 
by the United States Senate. I would remind all persons that 
legislation passed this committee unanimously in a bipartisan 
fashion and again I commend my friend, the ranking minority 
member, for his leadership in this matter and his cooperation 
and assistance. And it passed the House unanimously and then it 
came back from the Senate and all of a sudden we had a lot of 
negative votes because people were honestly concerned about the 
confusion that had been inflicted by the United States Senate 
through it's own amendment process and through the process 
which we sought advice in the country. In any event, there 
appears now to be problems and I am hopeful, Mr. Chairman, that 
we will be able through this process to ferret them out and to 
correct them, and indeed to find out what they might be and how 
they are impacting upon the American people, upon consumers and 
upon businesses.
    In January on the 30th, in a letter to the committee, 
former CPSC Chairman Nord wrote, ``The timelines in the law are 
proving to be unrealistic,'' which in fact, they are, and then 
``[CPSC] will not be able to continue at this pace without real 
risk of promulgating regulations that have not been thoroughly 
considered.'' Moreover, Chairman Nord stated, ``Although CPSC 
staff has been directed to move as quickly as possible to 
complete its work, short circuiting the rulemaking process 
gives short shrift to the analytical discipline contemplated by 
the statute.''
    In brief, Mr. Chairman and Madam Chairman, I intend to use 
my time today to discuss with you whether you share this view 
and more specifically whether you believe that CPSIA contains 
realistic deadlines for rulemakings and compliance as well as 
too little implementation discretion to CPSC. These problems 
have triggered a number of meetings between members of the 
House and Senate in which it discussed that perhaps maybe the 
House and the Senate should pressure CPSC to come to 
conclusions which may or may not be supported by the law. And I 
wish to state with great clarity that it is not my intention to 
undo anything that has been achieved via CPSIA but rather to 
discover what action by this committee as a part of its 
oversight may be necessary to correct any shortcomings that 
have been inflicted on the law and on the people of the United 
States by the actions of our dear friends in the Senate who 
have confused in a splendid fashion an otherwise excellent 
statute.
    I want to thank you, Mr. Chairman, and thank you, Madam 
Chairman, for coming before the committee today and I look 
forward to a frank and productive discussion about the matters 
currently confronting the CPSC as well as the future of the 
agency in the hope that perhaps our current efforts may achieve 
without the assistance of our dear friends and colleagues in 
the Senate the kind of confusion that has been inflicted upon 
your agency in the time since we passed CPSIA. I thank you, Mr. 
Chairman.
    Mr. Rush. The Chair thanks the Chairman Emeritus and now 
the Chair recognizes the gentleman from Kentucky for 2 minutes 
for the purposes of opening statements.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. Thank you, Chairman, for having this hearing 
today.
    I also was a conferee on this legislation that met with the 
Senate to adopt this legislation and it passed overwhelmingly 
in the House and also in this committee as former Chairman 
Dingell said. I think we also have a responsibility to protect 
our children and this legislation does precisely that but it 
also has had unintended consequences and many members have 
already discussed that today. The timelines are in question, 
the exemption authority that was taken away really from the 
consumer protection Commission. The sad thing is now the 
standard is so strict that the CPSC does not have the 
flexibility to exempt seemingly obvious products that do not 
contain a lead or other chemically hazardous materials and so 
we have a lot of small business people today spending thousands 
of dollars to prove that their product is safe, knowing full 
well that it is safe.
    And so it seems to me that it is not right that Congress 
passes a law so stringent that the Commission with the 
authority to enforce these laws does not have any flexibility. 
And I think we have an obligation to the people of the United 
States, particularly at this time of an economic downturn that 
we do not want to make it more difficult for small business 
people to stay in business, and we need to do everything that 
we can do to correct the problems that are in the legislation 
that was passed overwhelmingly by the House and Senate.
    Now, I yield back the balance of my time.
    Mr. Rush. The Chair thanks the gentleman. The Chair now 
recognizes my friend, the Vice Chair of the subcommittee, the 
gentlelady from Illinois, Ms. Schakowsky, for 2 minutes.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. I thank you, Chairman Rush, and I want to 
welcome Chairman Tenenbaum. We had the pleasure of meeting each 
other recently. I appreciate very much your reaching out to me 
and hearing about your commitment to make the Consumer Product 
Safety Commission and agency that will truly live up to its 
name and I look forward to working with you.
    I too wanted to talk about the Consumer Product Safety 
Improvement Act. There were many, many important provisions in 
the bill which I think everybody would agree to. Some that I 
worked on, including mandatory infant and toddler durable 
product standards and testing, and the Danny Keysar Child 
Product Safety Notification Act, and the first mandatory safety 
standards for children's toys are going to help grandmothers 
like me feel confident when I buy supplies or gifts for my 
grandkids that those things are going to be safe.
    And I know that there have been problems with 
implementation of the new law, particularly under the previous 
leadership at the CPSC. I personally think that the law can be 
successfully implemented and I just wanted to point out some 
flexibility that I do see in the law. The law includes language 
that empowers the CPSC to exempt certain materials from the 
testing and certification requirements, and to relieve those 
manufacturers of products that are in no danger of violating 
the new standards, and I know that the CPSC has begun to apply 
some of those exclusions and so I think there are opportunities 
within the existing bill to deal with complications. For 
example, I know that the CPSC has exempted from the lead 
testing requirements components that can't be accessed by a 
child, components of electronic devices, the inside, intended 
for children, a stay of enforcement of the lead and phthalates 
testing rules for a year or so. A number of things have been 
done and I think we should first before we change the law, look 
at those and see if they can provide the kind of relief to 
issues that have been raised today.
    I thank you, Mr. Chairman, and I yield back.
    Mr. Rush. The Chair thanks the gentlelady. The Chair now 
recognizes the gentleman from Louisiana, Mr. Scalise, for 2 
minutes for the purposes of opening statements.

 OPENING STATEMENT OF HON. STEVE SCALISE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Scalise. Thank you, Mr. Chairman. I want to thank you 
and Ranking Member Radanovich for having this hearing and I 
would like to congratulate Chairwoman Tenenbaum on her 
confirmation and welcome her before our subcommittee.
    The Consumer Product Safety Commission has a very important 
job. It protects consumers and families from products that may 
pose a hazard or injure children. We must ensure that the CPSC 
effectively carries out this mission and has the tools to do 
so. As the father of two young children, I want to be assured 
that the CPSC does its job and that the toys all children are 
playing with are safe.
    One particular issue before the CPSC that has affected my 
district as well as many across this country is Chinese 
drywall. After Florida, Louisiana has had the most cases in the 
Nation of toxic drywall. The Louisiana Department of Health and 
Hospitals has received over 800 complaints about Chinese 
drywall and it is estimated that the amount of Chinese drywall 
brought into Louisiana after Hurricanes Katrina and Rita could 
potentially affect approximately 7,000 homes. My office has 
received numerous complaints from constituents affected by 
Chinese drywall. One man who called lost his home to Hurricane 
Katrina and had to relocate his family to another town, only to 
find out that the home he moved into was built with Chinese 
drywall. Another constituent realized he had Chinese drywall in 
his home when his wife, who was four months pregnant, wasn't 
gaining any weight. Her doctor told her to move out of the home 
and now she and her husband are living in separate towns while 
their home is repaired.
    During these economic times, many of our constituents 
cannot afford to purchase another home or rent a second one 
while repairs are being made. It is clear that Chinese drywall 
is wreaking havoc in homes, charring electrical wires, 
corroding metal and causing serious health problems. We must 
determine the origin and scope of the toxic drywall and we must 
take action against those who introduced the drywall into 
American markets. It is also important that we continue to 
testing in order to realize the potential health problems that 
Chinese drywall can cause.
    Chairwoman Tenenbaum, in your testimony you mentioned that 
the CPSC is committed to finding answers and solutions for all 
the homeowners impacted by this issue. I want to know what 
those answers are and solutions you have found. The citizens of 
Louisiana and elsewhere in the country who have been impacted 
by Chinese drywall deserve clear answers and solutions. Those 
affected in my State have already been through so much and now 
4 years after Katrina many once again have to rebuild their 
homes. This is unacceptable and we must ensure that no one has 
to encounter these problems in the future.
    I look forward to your testimony and I yield back.
    Mr. Rush. The Chair recognizes now the gentlelady from 
Florida, Ms. Castor, for 2 minutes for the purposes of opening 
statements.

  OPENING STATEMENT OF HON. KATHY CASTOR, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Ms. Castor. Thank you, Mr. Chairman, very much for calling 
this important oversight hearing of the Consumer Product Safety 
Commission.
    Welcome to Chairman Tenenbaum. I am pleased that we have 
this opportunity to discuss the Consumer Product Safety Act 
with you. You have outstanding experience and your background 
as a teacher and the State School Superintendent for the State 
of South Carolina demonstrates your commitment to families and 
consumer issues and you are off to a great start, and in many 
ways, this hearing is going to be very different then if we had 
proceeded with the one scheduled a few months ago. At that 
time, many concerns were expressed to me about the CPSIA 
implementation, many of them stemming from the lack of 
information and what to expect from the Consumer Product Safety 
Commission. Rumors were flying that children's bookstores would 
be forced to closed or thrift stores would not be able to sell 
toys at all, but under your leadership in the last few months 
many of these concerns have been addressed, and I thank you for 
that.
    I appreciate that the assignment that was given to the 
Consumer Product Safety Commission was not an easy one. The new 
Consumer Product Safety Improvement Act was a fundamental shift 
from a reactive product safety regime to a proactive approach. 
Before parents just had to hope that toys they were buying for 
their kids were safe and watch for product recalls, and all too 
often the prevailing consumer safety policy with regard to toys 
was caveat emptor and this resulted in a disastrous 2007 
Christmas shopping season when popular toy trains had friendly, 
inviting faces painted on them with Chinese lead paint, and one 
popular toy called Aqua Dots allowed children to arrange 
brightly colored beads into designs and then bind them together 
with water. Unfortunately, the beads gave off the so-called--
the drug GHB when swallowed, so Congress gave the CPSC a big 
responsibility last year and there have been some bumps in the 
road.
    For too long there has been a lack of guidance from the 
agency for retailers and manufacturers and some of the 
deadlines for guidance came and went without the required 
guidance but I am extremely encouraged by the actions taken by 
the Commission in recent months. The quality and quantity of 
the proposed rules that have come out just since your swearing 
in is truly encouraging and like my colleague from Louisiana, I 
do hope you will address the important Florida issue important 
to many other States and that is the unsafe Chinese drywall 
that has been used in the construction of homes. It is making 
many families in Florida sick. Families should not have to 
worry that the building materials in their walls emit 
corrosive, toxic gases into their home so I look forward to 
hearing more from you about what the Commission is doing about 
toxic drywall and what we can do to help on that issue.
    Thank you being here. I yield back my time, Mr. Chairman.
    Mr. Rush. The Chair recognizes the gentleman from 
Pennsylvania, Mr. Pitts, for 2 minutes.

OPENING STATEMENT OF HON. JOSEPH R. PITTS, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Pitts. Thank you, Mr. Chairman. Thank you for holding 
this important hearing on the issues and the future of the 
Consumer Product Safety Commission.
    I think we all agree that protecting consumers, especially 
children from unsafe products is a worthy goal of government 
regulation. In 2008, the House Representatives passed the 
Consumer Product Safety Improvement Act with the goal of 
improving the safety of products that children and parents use 
everyday. However, the implementation of this law has given me 
cause for concern. We have observed a number of unforeseen and 
negative consequences arise and that are now putting undo 
pressure on businesses and manufacturers here in the United 
States. These consequences are increasingly problematic, 
especially during tough economic times when we desperately need 
the jobs provided by businesses and manufacturers.
    I received countless e-mails and phone calls and letters 
from businesses expressing the difficult and damaging affects 
this law is having on them. The CPSC needs the proper resources 
and the time and the flexibility to carry out the 
implementation of this law in a reasonable and thoughtful 
manner. I have grandchildren and I want to be sure their toys 
are safe. I don't want to weaken laws that ensure the products 
on the market are safe for all consumers but we need to do this 
in a way that is realistic, clear and fair and that is why I 
have joined many of my colleagues in co-sponsoring H.R. 1815. I 
believe this bill institutes the needed flexibility the 
Commission needs in order to respond to the concerns of 
businesses and industry.
    I welcome Chairman Tenenbaum. I look forward to hearing 
your testimony and appreciate you coming here today, and I 
yield back.
    Mr. Rush. The Chair recognizes the gentleman from Iowa, Mr. 
Braley, for 2 minutes.

OPENING STATEMENT OF HON. BRUCE L. BRALEY, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IOWA

    Mr. Braley. Thank you, Mr. Chairman, and, Chairman 
Tenenbaum, I think the most important component of your very 
impressive resume is your experience as an elementary school 
teacher because elementary school teachers use commonsense in 
enforcing the law of their classroom everyday. My mother has 
been teaching in Iowa for over 50 years and at the age of 80 
she is still subbing so I have great respect for elementary 
school teachers.
    But I want to focus on a couple of things that have not 
really been discussed here this morning and one is the point 
that you raised in your opening statement about the need for 
increased port monitoring. But underneath that there is a 
subtext that we rarely talk about and that is the incredible 
impact of foreign manufactured goods on the safety of consumers 
in this country. We have seen an incredible shift in consumer 
products that were manufactured in the United States that are 
now being made overseas. Most States have product liability 
laws that limit recovery in the chain for distribution to the 
manufacturer of those products if the manufacturer is subject 
to the jurisdiction of the courts and has not been declared 
insolvent. Anyone who ever tries to hold a Chinese manufacturer 
accountable to the jurisdiction of the courts in the State will 
tell you it is an immense challenge. In fact, many of these 
factories in China are de facto agents of the Chinese 
government and so the whole concept of accountability in U.S. 
courts is an enormous impediment to consumer safety. That is 
why the role of your agency is so critical and that is why the 
lack of enforcement on defective foreign products is one of the 
biggest challenges U.S. consumers face so I applaud your 
efforts to focus on this. We need to realize that many U.S. 
consumers are not being protected for the injuries and deaths 
caused by foreign manufactured products and come up with a 
joint strategy to address those concerns.
    On the issue of Chinese drywall, I inspected homes in 
Boynton Beach, Florida with defective Chinese drywall and came 
back here and was sick for the next 6 weeks. I saw with my own 
eyes the corrosive effect on metal that this drywall is having. 
I smelled the odors in these homes. It is an enormous crisis 
and it is just the tip of the iceberg of what is wrong with 
import monitoring in this country. We have a lot to do to 
improve the enforcement of the quality of goods coming into 
this country and I pledge my commitment to work with you and 
your office to make sure that we are doing a better job of 
protecting U.S. consumers.
    And I yield back my time.
    Mr. Rush. The gentleman from Georgia, Mr. Barrow, is 
recognized for 2 minutes.
    Mr. Barrow. I thank the Chairman.
    In the interest of Chairman Tenenbaum's time, I will 
refrain from offering an opening statement but I cannot refrain 
from taking this opportunity to personally welcome you and 
congratulate you on your appointment. Our paths first met 5 
years ago when I was seeking election to the House and our 
guest today was seeking election to the other body and all I 
can say is that the other body's great loss is the Consumer 
Product Safety Commission's great gain. You are certainly one 
of the best things to have come from South Carolina in a long, 
long time and on behalf of your kinfolk in Savannah, I 
personally congratulate you and welcome you to the committee 
and thank you for your service to our country.
    With that, I yield back.
    Mr. Rush. The Chair now recognizes the gentlelady from 
Ohio, Ms. Sutton, for 2 minutes.

  OPENING STATEMENT OF HON. BETTY SUTTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Ms. Sutton. Thank you, Chairman Rush, and thank you for 
holding today's important hearing on the Consumer Product 
Safety Commission.
    I am pleased to welcome you, Chairman Tenenbaum. 
Congratulations on your confirmation. You have such an 
important role and responsibility as the head of the agency 
charged with protecting the public, especially children from 
unsafe and dangerous products and with your appointment I am 
starting to feel better already. I wish you the best of luck.
    Consumer product safety is not an area that we can afford 
to ignore and last year I was proud when we passed the Consumer 
Product Safety Improvement Act. That law created basic safety 
standards for keeping toxic lead out of children's products. 
Manufacturers must affirmatively demonstrate that those 
products are safe. The Act also provides vital new resources 
and authority including the Import Safety Initiative which puts 
inspectors at key U.S. ports, because as we have heard here 
today, in recent years the relationship, and I know you are 
well aware of this, the relationship between our Nation's 
import safety crisis and our Nation's trade policy has become 
painfully obvious. As imports have continued to grow, 80 
percent of all toys sold in the U.S. are imported from China 
alone. Some manufacturers have shown a remarkable failure to 
adhere to basic safety standards. It is a national shame and 
embarrassment when companies and importers pay more attention 
to their costs then our safety and the safety of our children 
and our families. Product safety must be the primary focus. In 
2007 and 2008, more than 37 million toys were recalled in the 
U.S. This year there have been 23 toy recalls issued affecting 
over 4 million toys and every single recalled toy was 
manufactured in China.
    We have also seen reports of serious health problems in 
residents of homes containing imported Chinese drywall and in 
response I am pleased that the CPSC established a drywall task 
force working with other agencies to investigate the hazards of 
imported drywall. And I am very interested to see the results 
of the task force studies and see what we can do to ensure that 
things being imported into this country are safe for consumers 
in the United States.
    I yield back.
    Mr. Rush. The Chair now recognizes the gentlelady from 
Colorado, Ms. DeGette, for 2 minutes.

 OPENING STATEMENT OF HON. DIANA DEGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. DeGette. Thank you very much, Mr. Chairman.
    I want to add my welcome to our new Commissioner and say 
hallelujah, we are glad you are here.
    I have been working on this legislation for a long time. I 
was on the conference committee that after we passed the Act to 
try to bring it to the floor and I was really happy to work 
with my friends on the other side of the aisle, in particular 
Ranking Member Barton to come up with these compromises.
    What I am now interested in is how the Consumer Product 
Safety Commission is going to implement these far-ranging 
provisions of the legislation. Some issues have come up as we 
are all aware since the enactment of the bill and one of the 
things I am interested to know, and I think Chairman Dingell 
and Chairman Waxman and others are interested as well, is can 
we fix these issues administratively? Do we need to amend the 
bill? What do we need to do, in particular, with ATVs and other 
consumer products?
    I think though that the change that both the legislation 
and the new administration have brought to the agency are 
exciting. I think that we are going to be able to do a lot for 
the consumers of America and I am really proud to be a part of 
this process.
    With that, Mr. Chairman, I will yield back.
    Mr. Rush. The Chair thanks the gentlelady.
    It is now my pleasure and my privilege to recognize the 
Chairman of the U.S. Consumer Product Safety Commission and to 
extend to her the customary 5 minutes for the purposes of her 
opening statement but prior to her opening statement I would 
ask that she understand that it is now the practice of this 
subcommittee that you be sworn in before you issue your opening 
statement, and so would you stand and please raise your right 
hand.
    [Witness sworn.]
    Mr. Rush. Her credentials have been well-established 
earlier in this hearing and now it is my pleasure to recognize 
you for 5 minutes for the purposes of opening statement.

 TESTIMONY OF INEZ MOORE TENENBAUM, CHAIRMAN, CONSUMER PRODUCT 
                       SAFETY COMMISSION

    Ms. Tenenbaum. Good morning, Chairman Rush, Ranking Member 
Radanovich and members of the Subcommittee on Commerce, Trade 
and Consumer Protection. I am pleased to be here today to talk 
about the current actions that we are taking at the U.S. 
Consumer Product Safety Commission to protect the safety of 
children and consumers as well as give you my vision of this 
agency.
    Let me begin by saying that I am deeply honored to have the 
privilege of serving as Chairman at such an important time in 
the Commission's history. In my first two months leading the 
CPSC I have focused on three key goals, transparency and 
openness in those we service, a renewed focus on education and 
advocacy for all Americans, and firm but fair enforcement of 
the product safety laws and regulations. My top priority since 
assuming the Chair of the Commission has been meeting the 
statutory deadlines for rules and reports required by the 
CPSIA. Through the hard work of the CPSC staff, and I must say 
I have never met more dedicated, hardworking people then those 
people who serve at the Commission, I am pleased to announce 
that 12 substantive rules and policy guidance documents have 
been released since I was sworn in on June 23, 2009. In each of 
these proceedings I have directed the Commission staff to work 
closely with all impacted stakeholders to ensure that the rules 
that we implement remain true to the statutory intent of the 
CPSIA while minimizing undue burdens on small businesses and 
other stakeholders. As we move forward, I assure you this 
subcommittee that we will continue to solicit feedback from all 
involved parties and work to implement commonsense rules that 
are squarely focused on maximizing product safety and reducing 
administrative burdens.
    Another key priority of mine is the rebuilding and 
revitalization of the CPSC's internal business processes. The 
Commission's information technology systems are truly the 
lifeblood of this agency. Sadly, these systems were neglected 
for far too long. Early today the Commission released a plan to 
Congress outlining phase one of our business process 
modernization initiative which is the implementation of a 
searchable product information database. By leveraging 
technology, the CPSC can take a proactive approach to protect 
public health and safety, and recognize emerging hazards more 
effectively.
    Consumer education is another key mission and component of 
my tenure at the agency. Through network television appearances 
and newspaper interviews I have worked to reach millions of 
families with information about dangerous cribs, bassinets and 
window blinds, products that have killed young children. Last 
month the GAO released a report noting that the Commission 
could do a better job of reaching out to poor and minority 
communities that often do not receive critical consumer product 
safety information and, Chairman Rush, I know that this is a 
key priority of yours and I want to assure you that it is also 
a key priority of mine. To that end, I have directed the 
Commission staff to expand our education and consumer outreach 
efforts to underserved Americans.
    Later this month, the CPSC also plans to launch a social 
networking, social engagement program that will establish the 
CPSC's presence on various new media sites including Facebook, 
Twitter and YouTube. Through these efforts we can educate a 
greater number of consumers and save lives.
    Increased oversight of the products coming through our 
ports is another key priority. The GAO recently released a 
study that audited and analyzed the agency's effort to police 
imports and prevent the entry of unsafe products into the U.S. 
market. I agree with all of these recommendations and I have 
directed the Commission staff to update agreements with the 
Customs and Border Protection to allow better information-
sharing.
    It is also critical for this agency to respond diligently 
to new and emerging product safety issues such as problems now 
being reported with certain types of imported drywall. The CPSC 
is vigorously pursuing its investigation of imported drywall 
that has been linked to the corrosion of metal components and 
possible health impacts by homeowners in a number of States, 
and I understand the personal hardships that this issue has 
caused impacted homeowners and want to assure the members of 
this subcommittee that effective and efficient completion of 
this investigation is a key priority of the CPSC and our 
Federal and State partners.
    Finally, I want to say a few words about the importance of 
pool and spa safety. Ensuring the compliance with the Virginia 
Graeme Baker Pool and Spa Safety Act is a critical priority of 
mine. I am happy to share good news with the Congress today 
about what we found in the last few months. We have sent our 
field investigators out to inspect over 1200 pools and spas in 
38 States as a part of a recently launched enforcement 
initiative and we have found that 80 to 90 percent of the pools 
and spas inspected were found to be compliant. This is very 
good news and means that the children will be safe when they go 
swimming. We are also working with the States Attorneys General 
to find out why the other 10 percent are not in compliance.
    Chairman Rush and Ranking Member Radanovich, thank you 
again for allowing me the opportunity to update the 
subcommittee on my vision for the future of the Consumer 
Product Safety Commission. I believe that CPSC stands for 
safety, especially the safety of children, so with your support 
I intend to continue the transformation of this agency from 
what some have described as a teething tiger into the world's 
leading lion in consumer protection. Thank you and I look 
forward to answering your questions.
    [The prepared statement of Ms. Tenenbaum follows:]

    [GRAPHIC] [TIFF OMITTED] T4096A.001
    
    [GRAPHIC] [TIFF OMITTED] T4096A.002
    
    [GRAPHIC] [TIFF OMITTED] T4096A.003
    
    [GRAPHIC] [TIFF OMITTED] T4096A.004
    
    [GRAPHIC] [TIFF OMITTED] T4096A.005
    
    [GRAPHIC] [TIFF OMITTED] T4096A.006
    
    [GRAPHIC] [TIFF OMITTED] T4096A.007
    
    [GRAPHIC] [TIFF OMITTED] T4096A.008
    
    [GRAPHIC] [TIFF OMITTED] T4096A.009
    
    Mr. Rush. The Chair thanks the Chairman.
    Before we engage in the questioning from the members of the 
subcommittee, the Chair requests unanimous consent that letters 
from five consumer groups and a letter that was sent to me 
through the offices of Congressman Schauer of Michigan, that 
these letters be entered into the record. Without any 
objections or hearing no objections, so ordered.
    [The information appears at the conclusion of the record.]
    Mr. Rush. Do you want to report unanimous consent requests 
at this time?
    Mr. Radanovich. I would. Thank you, Mr. Chairman. I have 
got a couple of unanimous consent requests, statements on 
behalf of Congressman Gingrey and Burgess and also letters from 
constituents, over 100 here of constituent companies, small 
businesses that are impacted by the effects of CPSIA, of this 
legislation. I would ask that all three of these items be 
accepted into the record.
    Mr. Rush. Hearing no objections, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Rush. The Chair recognizes himself for 5 minutes for 
the purposes of questioning the witness.
    Madam Chairman, last year the CPSC requested $8 million for 
fiscal year 2009 as part of its performance budget statement to 
the Congress and that request has funded 444 full-time 
employees which is an increase of 24 over the full-time 
employee staffing level for '08, and my question is how many of 
these additional employees have been hired by the agency? Do 
you seem to need additional employees and are any of those 
funds still going to CPSC's enhancements in import safety and 
product testing capabilities? What proportion of the FTE's and 
of your budget will go to each category and what other roles do 
you anticipate the needs FTE will play under your 
administration?
    Ms. Tenenbaum. Thank you, Mr. Chairman. The CPSC has a 
staffing level of 530 FTEs. We are currently at 458 employees 
at the agency. We have 18 pending hires that have accepted 
offers for employment and we have 36 full-time employees that 
we have hired since January, 2009. We have 29 vacancies where 
interviews are currently underway and 27 other positions are in 
the stages of the recruitment process. We hope by October to 
reach the ceiling of 530 employees so that we will be fully 
staffed and we will be putting additional staff in port 
security and surveillance as well as compliance, and throughout 
the agency to see that we implement the CPSIA and other 
statutes. I can give you the breakdown for every division and 
how many will be added to those divisions. I can send it over 
but I did not bring it with me today.
    Mr. Rush. Would you please supply that?
    Ms. Tenenbaum. We will get that to you but we are hoping by 
October we will meet the ceiling of 530 which is the maximum 
FTEs that we are supposed to have.
    Mr. Rush. Can you--the GAO's report on improving safety for 
minority children and families as you indicated was a major 
concern of mine and I know from your previous statements that 
you have committed to reversing or to improving the patterns of 
safety for minority children and families. Can you expound a 
little bit more on some of your priorities in that particular 
area, please?
    Ms. Tenenbaum. Well, we found that overall the Commission 
needs to improve our ability to educate consumers. There is 
nothing more disheartening and sad than to find out that 
products that were recalled several years ago are resulting in 
injury and deaths, and we have found that recently we had to go 
back and reissue press releases, and we did this recently on 
bassinets but so that is why we want to step it up. We have a 
CPSC 2.0 where we are going to be using new media as others are 
to get the messages out. We also want to focus in the minority 
outreach of looking at how we can enhance our ability to talk 
directly with minority organizations. We welcomed the 
recommendation of the GAO and information that we hope, we 
think we need to have and the other thing is just the 
information efforts, not only to consumers as a whole but 
targeting minorities. We believe that a child's economic 
background should not affect the risk of injury. Now, we will 
be leading a minority outreach day to increase awareness in 
product safety in targeted markets which will be a media event 
and working with organizations, and then we also work with the 
Neighborhood Safety Network members, and these are several 
hundred organizations where we can get information to them and 
they disseminate it to other minority organizations. We are 
going to report to you at the end of October on the GAO report 
so we will address that in detail in our report to you in 
October.
    Mr. Rush. My time has expired. I want to thank you for your 
responses to my questions.
    The Chair recognizes Mr. Radanovich for 5 minutes.
    Mr. Radanovich. Thank you, Mr. Chairman, and welcome, 
Chairman Tenenbaum, to the committee and I enjoyed our getting 
a chance to know each other and appreciate your outreach and 
welcome you to the Commission.
    I want to just highlight a couple--I have got a couple of 
items in the committee room here to kind of highlight some of 
the problems that CPSIA seems to have with small business and 
there is a couple of products over there that cost $65, a 
microscope for $60 and testing for those products for the 
microscope is $3,678 for--that was for one of 24 samples that 
were submitted, and the other one was $5,973. But I think the 
item that represents problems with small business the most is 
this Native American ceremonial costume that was created in the 
Southwest somewhere. Recently my family and I came across the 
country, California to Washington, D.C. in a cross-country trip 
this August and there were a lot of vendors at the reservations 
and such that were making a living by selling similar costumes 
like this, and many of these have beads or special designs that 
make each one of them individual. None of them are made the 
same and this poses a real problem because under CPSIA this 
would have to be--one costume at a time would have to be tested 
and you would be destroying the costume at the time that it is 
testing so it is really a small batch run product problem with 
CPSIA, and I think this item highlights the problem the most. 
Now, products like this were especially with crystal beads and 
such that folks had a problem with and they submitted a request 
to exclude crystal and glass beads from the lead provisions in 
CPSIA and it was denied, and I want to read if I can your 
comment on the denial of the request. It said, ``In making a 
determination, I was mindful that the statute does not use the 
term harmful amount which would allow staff to utilize a risk-
based approach. Thus, while Commission staff recognized that 
most crystal and glass beads do not appear to pose a serious 
health risk to children, the request for the exclusion must be 
denied.''
    So I guess I have a couple of questions that kind of 
revolve around this problem of small batch testing and the 
crystal and glass bead exclusion from the lead provisions. Do 
you think the Commission has the flexibility to exempt safe 
products that don't meet the exemption standard or is it 
virtually impossible under the standard of any lead absorption 
for most products and materials?
    Ms. Tenenbaum. I appreciate your question, Ranking Member 
Radanovich, because I think there has been some interpretation 
of my comments that have muddied the waters around this issue 
so I appreciate the opportunity to comment. You did read the 
section of my comments that have people wondering were the 
crystals--did they pose no hazard at all to children. And I met 
with the staff yesterday to make sure that I understand and it 
was really, I guess, poorly worded that part of my statement 
and what the staff meant when they--and I was taking it from 
their memorandum, was that under the Federal Hazardous 
Substance Act which was the old Act. The Act that we enforced 
and continue to but before it was amended by the CPSIA, that 
CPSC had to determine whether a product can contain lead and it 
resulted in substantial illness or injury. So before you could 
regulate the lead content, you had to prove that there was 
substantial illness or injury. When you passed the CPSIA, we 
were not required to prove that standard, in fact, Congress 
struggled over where to set the lead limits and you determined 
that there was no safe level of lead based on testimony and, 
you know, Congress did.
    Mr. Radanovich. Which did not allow you to do any risk-
based assessment of any of the products?
    Ms. Tenenbaum. Well, going back to the lead crystals, 
Congress has set the threshold after August 14 of this year to 
be 300 parts per million. These lead crystal beads were 900 
parts per million up to 23,000 parts per million per bead so I 
think it was poorly worded.
    Mr. Radanovich. But during the conversation too, it was 
known that the lead in those beads were not in a form that was 
going to cause a problem even if they were ingested and I think 
that is where the devil is in the detail of a lot of this. Some 
of those beads would have to be crushed up into powder and then 
swallowed in order to have the adverse affect of the lead which 
makes me think that the Commission needs some type of some 
ability to test things on a risk-based assessment. And I guess 
what I think I would like to get an answer from is do you think 
that products that are excluded such as crystal present an 
unreasonable risk of injury or are unsafe and do you need 
flexibility to grant permission exemptions to permit safe 
products that can't meet the statutory limit?
    Ms. Tenenbaum. Well, in the lead we showed that there was 
some leaching but it did not rise to the level with one bead to 
oppose to be listed under the Federal Hazardous Substance Act.
    Mr. Radanovich. But then that doesn't give you--but you 
don't have any flexibility to exempt that?
    Ms. Tenenbaum. But what if the child swallowed 50 small 
beads, we could not determine whether or not one, you know, one 
bead. It was determined we would not put one bead on the 
Federal Hazardous Substance Act but what if a child swallowed 
multiple beads and it would have raised the blood level.
    Mr. Radanovich. And if I may get you to answer this one 
last question though, do you need flexibility to grant 
exemptions to permit safe products that can't meet the 
statutory limit?
    Ms. Tenenbaum. Well, it goes to the heart of the matter on 
what is a safe level for lead and Congress struggled with it.
    Mr. Radanovich. But do you feel you need that flexibility 
so that you can exempt safe products?
    Ms. Tenenbaum. I feel it would be premature for me to 
answer that question at this time because these beads went all 
the way up to 23,000 parts per million.
    Mr. Radanovich. Well, let us just in all products, do you 
need in any case do you feel that you need the flexibility to 
grant exemptions for safe products?
    Ms. Tenenbaum. I believe that we have to look at products 
on a case-by-case basis and with good science wedded with a 
good statute determine whether or not it is at risk.
    Mr. Rush. The gentleman's time has expired.
    Ms. Tenenbaum. So I think it is premature for me to say 
when Congress struggled with this very issue it was the heart 
of the CPSIA lead limits and Congress collectively decided and 
overwhelmingly passed a statute that said we will have any 
lead--we will not allow a product that had any lead.
    Mr. Radanovich. Even if those products are safe.
    Mr. Rush. The Chair has been very lenient with the 
gentleman.
    Mr. Radanovich. Thank you, Mr. Chairman.
    Ms. Tenenbaum. Thank you. That's the heart of the matter 
really.
    Mr. Rush. The Chair now recognizes the Chairman Emeritus 
for 5 minutes for questioning the witness.
    Mr. Dingell. Mr. Chairman, I thank you.
    On March 4, 2009, I sent a letter to CPSC with 10 detailed 
questions concerning implementation of the Consumer Product 
Safety Improvement Act, the CPSIA. I would ask unanimous 
consent that that be inserted in the record at this time, Mr. 
Chairman.
    Mr. Rush. Hearing no objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Dingell. At the request or rather at the instruction of 
former Chairman Nord, CPSC prepared responses to the questions 
which I ask unanimous consent be inserted into the record at 
this point.
    Mr. Rush. Hearing no objections, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Dingell. Those responses indicated support for 
amendment of the statute, ``in order to allow CPSC to set risk-
based priorities given the finite resources available to it.'' 
I would appreciate now your candid responses to the following 
questions in order to ascertain whether you support such course 
of action or how we should address the problems that the 
Commission has with the implementation of that statute. As my 
time is limited, Madam Chairman, I ask that you respond to 
these questions with a yes or no. I will note that I will 
submit these and other questions for the record in order to 
allow you to provide more detailed answer.
    First question, given widespread concern about the 
practicality of retroactively applying CPSIA's requirement to 
existing inventory, do you believe that the applicability of 
such requirements should instead be limited to products 
manufactured after the effective date of the statute except in 
circumstances where the Commission decides that the exposure to 
a product presents a health and safety risk to children, yes or 
no?
    Ms. Tenenbaum. Well, I would have to say no. The Federal 
Court decided in the phthalate case that we could not exempt 
products that were manufactured before the statute was passed.
    Mr. Dingell. Thank you, Madam Chairman.
    Next question, I am concerned that the age limit for 
children's products defined in CPSIA unnecessarily subject 
certain products such as bicycles or books or magazines to more 
rigorous standards than otherwise necessary. Do you believe the 
age limit used in the definition of children's products should 
be lowered to better reflect exposure, yes or no?
    Ms. Tenenbaum. No, because you often have a home where 
multiple children are at all ages using the same product.
    Mr. Dingell. Now, do you believe that CPSC should be given 
the discretion to set a further age or rather to set a higher 
age for certain materials or classes of products that pose a 
risk to older children or to younger ones in the same 
household, yes or no?
    Ms. Tenenbaum. I think I answered that in number two that 
we need to.
    Mr. Dingell. Do you mean the same no answer, Madam 
Chairman?
    Ms. Tenenbaum. Right, no.
    Mr. Dingell. Thank you. I hope you understand this is not 
an attempt on my part to be discourteous but I have a lot to 
get in here and I am much concerned about that the fact the 
time is running very fast.
    I am also concerned that the blanket applicability to 
products of certification tracking label requirements would be 
unduly cumbersome, both from the standpoint of CPSC and 
consumer product manufacturers. Should CPSC be allowed to 
address certification tracking labels and other issues on a 
product class or other logical basis using risk assessment 
methodologies to establish needs, priorities and a phase-in 
schedule, yes or no?
    Ms. Tenenbaum. It depends on the individual product. We 
have to look at it product by product.
    Mr. Dingell. I am going to ask that you will have time to 
respond further to these questions and I will be submitting 
additional questions to you as Chairman of the Commission.
    Do you believe the implementation of CPSIA has 
overstretched CPSC's staff and resources, yes or no?
    Ms. Tenenbaum. It has but they are hardworking and our 
staff is working until midnight many nights. Many worked the 
4th of July. They are working many weekends to work out to get 
these rules finished so that you can have it.
    Mr. Dingell. Madam Chairman, thank you. I have a couple 
more questions here.
    Put differently, does CPSC have adequate resources with 
which to implement CPSIA as well as to carry out its other 
mandates, yes or no?
    Ms. Tenenbaum. No.
    Mr. Dingell. I am sorry?
    Ms. Tenenbaum. No, we don't have adequate resources but we 
are working hard to do the best we can.
    Mr. Dingell. If not, what amount of funding would you 
suggest be given to CPSC to allow it to perform its functions 
satisfactorily?
    Ms. Tenenbaum. Well, we are not--we submitted our budget to 
OMB and we cannot discuss it until September the 14th, I 
understand, publicly.
    Mr. Dingell. Well, we do need the answer to that question 
for us to see that you can function. This committee has 
legislative jurisdiction over these matters and OMB lacks that 
jurisdiction.
    Ms. Tenenbaum. Well, we can give it to you on September the 
14th.
    Mr. Dingell. Remember that difficult fact so I am asking 
that you submit that to us for the record.
    Ms. Tenenbaum. Thank you.
    Mr. Dingell. Madam Chairman, in conclusion, do you believe 
that the problems encountered in implementing CPSIA can be 
remedied solely via administrative action by CPSC, yes or no?
    Ms. Tenenbaum. I would say most of them can by 
administrative action.
    Mr. Dingell. Most, so that means some cannot?
    Ms. Tenenbaum. There will be some areas where we still have 
not come up with a solution.
    Mr. Dingell. I will be asking further information so as you 
can identify that. Now, if not, do you support targeted 
amendments to CPSIA to address the concerns which have arisen 
during the Act's implementation, yes or no?
    Ms. Tenenbaum. It is premature for me to answer that. We 
are working with all of the industries that are affected and 
trying to untangle the knots that they have with their products 
and we are making great progress in resolving many of these 
issues.
    Mr. Dingell. So you are telling me that such cut and bite 
amendments carefully targeted to CPSIA may be required?
    Ms. Tenenbaum. I said it is premature for me to answer 
that.
    Mr. Dingell. I said may, I didn't say will be.
    Ms. Tenenbaum. May be required, may.
    Mr. Dingell. OK, now, if they are required will you first 
tell the committee whether they are required or not and second 
of all, will you work with us if such are required?
    Ms. Tenenbaum. Absolutely, 100 percent.
    Mr. Dingell. OK, now, when will you know whether these 
amendments, carefully targeted will be required?
    Ms. Tenenbaum. Well, there is one rule that we are working 
on and once it--it is called the--it contains the component 
part testing rule that many of these issues dealing with 
handcrafters and other products will be--will find out that 
under the component part they will not have to test. For 
example, a shirt that falls under determinations rule, it is 
cotton so you don't have to test a cotton shirt but the 
buttons, if you have the button manufacturer certify to you 
that the button does not contain lead then the whole product 
would not have to be tested and we feel like that is going to 
untangle a lot of knots.
    Mr. Dingell. All right, let me try to just--do you have 
problems in involving a rule with regard to bicycles, off-road 
vehicles and things of that kind, right?
    Ms. Tenenbaum. Well, I met recently.
    Mr. Dingell. Just yes or no.
    Ms. Tenenbaum. We are--if you will let me explain on the 
ATVs, we met with the industry.
    Mr. Dingell. My time is about gone and the Chairman is 
kindly permitting me.
    Ms. Tenenbaum. There are issues that we are working with 
administratively with both industries.
    Mr. Dingell. Say it again.
    Ms. Tenenbaum. It has a stay right now on both the bikes 
and the ATVs and we are working with them on how they can make 
the lead inaccessible in the parts that the rider comes in 
contact with, like the handlebars. You know, I looked at my 
bicycle. It has rubber around it so I don't come in contact 
with that.
    Mr. Dingell. So you have a problem that you can't solve 
very quickly, can you?
    Ms. Tenenbaum. Yes, we can once we determine that they can 
make those parts inaccessible.
    Mr. Dingell. Now, you have got a fine problem on 
motorcycles?
    Ms. Tenenbaum. Motorcycles has the issue of lead in the 
handlebars. There might be lead in the vinyl seats but the 
motorcycle might not be a children's product.
    Mr. Dingell. OK and you have got a similar problem on all 
terrain vehicles and snowmobiles and such?
    Ms. Tenenbaum. There are issues there in implementation and 
we are working with the industry and met with them last week.
    Mr. Dingell. And you have got a problem with regard to lead 
in publications, periodicals, books, children and adult books, 
is that right?
    Ms. Tenenbaum. Well, no we don't.
    Mr. Dingell. No you don't?
    Ms. Tenenbaum. This is a book.
    Mr. Dingell. Why is it that the book publishers are calling 
and telling me so?
    Ms. Tenenbaum. Because, you know, it would be nice if we 
could and I want to--offering to meet publicly with affected 
industries which we are doing, holding public hearings which I 
want to do. We are resolving many of these issues. The ordinary 
book like this book will contain no lead. It is pictures. It is 
printed with a four-color process. This book complies and the 
reason we have it covered is because----
    Mr. Dingell. But you have books out there that do not 
comply, is that right?
    Ms. Tenenbaum. The only books that don't comply are books 
that are published prior to 1985 which we don't consider 
children's books. These are vintage books that will be 
considered adult vintage books even if they are for children 
and those books the only ones that don't comply are those that 
have illustrations using color.
    Mr. Dingell. Madam Chairman, I see that my time has been 
exceeded.
    Ms. Tenenbaum. Now, the other thing about the books.
    Mr. Dingell. What I want you to understand is that this 
committee wants to see to it that you have a statute that you 
can properly administer without a lot of toe-dancing and 
improper pressure placed upon you to resolve questions in a way 
which are inconsistent with the statute.
    Mr. Chairman, I will ask unanimous consent that I be 
permitted to submit a further letter and information to the 
record and responses by the Chairman to get to the bottom of 
these questions that I am trying to answer.
    Mr. Rush. Hearing no objection, so ordered and the Chair 
wants the Chairman Emeritus to know that you are in the 
thereabout area of 5 minutes.
    Mr. Dingell. You have been excessively kind and courteous. 
I give you my respect and thanks.
    Mr. Rush. Well, the Chair has a deep-seeded love for the 
Chairman Emeritus.
    The Chair now recognizes the gentleman from Louisiana, Mr. 
Scalise, for 2 minutes.
    Mr. Scalise. Thank you, Mr. Chairman.
    Madam Chair, on the question of Chinese drywall, looking 
through your opening statements there are a few questions, one 
that you had cited that your office has 1,192 incident reports 
on this issue. Do you know how many of those are from 
Louisiana?
    Ms. Tenenbaum. Well, most of the drywall problems are from 
Florida, Louisiana and Virginia and so a great number of those 
are from Louisiana, and we realize that this is a serious 
problem for your constituents.
    Mr. Scalise. And of course with all of the rebuilding that 
occurred after Hurricanes Katrina and Rita, our offices all 
throughout our delegation continue to receive more complaints 
and serious problems and I know some of my other colleagues 
from other States have expressed similar things they are 
experiencing in their State but just, I guess, because of the 
high number of homes that have been rebuilt and obviously some 
of this toxic Chinese drywall was used in many of these homes, 
we continue to receive higher numbers. Have you talked to our 
State's Department of Health and Hospitals to see if--I don't 
know if maybe some people might have reported incidents to them 
that didn't find their way to your office to make sure that the 
numbers and the incidents that have been reported are 
accurately being delivered over to your office in the cases 
where the State knows about an incident in our State?
    Ms. Tenenbaum. We are working with our State partners, with 
your State health departments and we are also working with our 
Federal partners, the CDC, HUD, EPA and the White House 
Domestic Policy Council to get as much information as possible.
    Mr. Scalise. OK, I understand your task force on this issue 
is going to be issuing a report it says sometime in the fall. 
Do you know roughly when that report will be issued?
    Ms. Tenenbaum. We are trying to issue this in late October 
and the report will have the EPA pilot study of six homes, the 
indoor test study, the EPA's elemental analysis of drywall 
which breaks down all the account compounds in the drywall. We 
also have been working on a phase two chamber test with the 
Lawrence Berkeley National Laboratory and a 50-home indoor air 
quality test program that is conducted by a private company, 
the Environmental Health and Engineering Company.
    Mr. Scalise. Is that report going to look into how this 
tainted drywall actually came into our country? What steps were 
maybe--what things were missed that allowed it to come in?
    Ms. Tenenbaum. Well, we sent a team over to China and our 
team from the CPSC visited six mines and received samples to 
come back and we are using them in the testing. We are tracking 
distribution of drywall in the United States and what we have 
done is written letters to numerous importers, builders, 
companies that sell drywall. One of the issues that I have 
found is that the drywall standards only address the structural 
integrity and did not address what goes in the content.
    Mr. Scalise. The toxic levels, potentially.
    Ms. Tenenbaum. So that is one of the things that I want to 
do is to create a standard for drywall so we would have a 
universal standard of products that can go into drywall.
    Mr. Scalise. And I would look forward to working with you 
on that. And final question, you had mentioned in your 
testimony that over 500 consumers were asked by your office to 
update their information on their incident reports. What types 
of things did they, you know, was it maybe that they didn't 
fill out all the things you wanted or there was additional 
information you wanted? What types of things did those?
    Ms. Tenenbaum. Do you mean on the drywall?
    Mr. Scalise. Yes.
    Ms. Tenenbaum. Well, they have just had new information 
about how it is affecting them physically. There are two tracks 
in this. One is to look at is this drywall--are these problems 
of drywall causing these health problems, these respiratory 
problems? And then is the drywall corroding electrical wires 
and so we are looking at that and they probably--I can get you 
a summary of what the complaints were or what the information 
is.
    Mr. Scalise. Sure, I appreciate that.
    And thank you, Mr. Chairman, for your latitude.
    Mr. Rush. The Chair would like to announce that there are 
votes occurring on the floor and I am not sure exactly how much 
time is left but it is the Chairman's intention to go vote and 
allow members to go and vote and then to return for the 
continuance of this hearing. So we will be coming back but the 
Chair wants to recognize the gentlelady from Florida for her 2 
minutes prior to us going to vote.
    Ms. Castor. Thank you, Mr. Chairman.
    I will stick on Chinese drywall and I appreciate the 
seriousness with which the Consumer Product Safety Commission 
has undertaken the investigation and as you know, importation 
of Chinese drywall spiked dramatically a few years ago. In 
2005, we imported $3.6 billion worth. In 2006, that spiked to 
over $32 billion worth before dropping back down to $6 billion. 
When that kind of massive spike occurs in trade for product 
that could potentially cause problems, does that raise a red 
flag for the CPSC that maybe we should take a closer look? And 
during your investigation have you considered an interim ban on 
Chinese drywall? And finally, there have been a number of 
proposals in the Congress and I would ask you to please review 
those and get back to us on what you recommend. Will you wait 
for the results of the investigation and tell me again what the 
timeframe is for that?
    Ms. Tenenbaum. OK, thank you for those questions and we 
understand from Florida that you are getting many constituent 
letters and that you are very concerned about the quality of 
life for the people who live in your district and we are too. 
We want you to know that.
    There are 6.9 million piece of drywall imported from China 
in 2006, there were--so 6.9 million pieces coming from all over 
the country. We have not been--from different sources with 
different manufacturers and which poses a different issue for 
the CPSC. It is not like you find one product that doesn't 
comply and can ban all products. There were some pieces of 
drywall from China that did comply and didn't have this problem 
and other pieces did. The report that we will give you in late 
October will be studies of in-home, the chamber test as well as 
we take the drywall out of the home and take it to a chamber so 
we can test the emissions from that drywall. There will be in-
air quality tests, in-home air quality tests and there will be 
elemental tests where the EPA is breaking down the elements to 
tell us what is in there that is causing the corrosion and the 
respiratory problems. So we hope that this yields more 
information on the drywall. Practically speaking about a ban on 
drywall is very--the market has taken care of that because very 
few people want Chinese drywall and therefore we see very 
little coming into the country at this point. And so that is 
where but the overwhelming amount of drywall had been coming 
from China and now we get notification from the ports if 
drywall is sent to the port but very little is coming in at 
this time. We have met with our counterpart, the Chinese 
counterpart, AQSIQ. China has sent experts in to visit homes. 
They sent two of their drywall experts to look at--to go into 
these homes that were contaminated. As I said, we sent a team 
to China. Senator Bill Nelson from Florida went and met with 
the AQSIQ several weeks ago. He told them that President Obama 
was going to, he hoped, mention that when he met with President 
Hu in China. And so it is--we are really putting a great deal 
of our resources and attention on this, probably more than any 
other issue we are working on at this time is focusing on 
drywall so that we can find an answer to it, and so after we 
find an answer to on into rulemaking so that we can not have 
this situation happen again.
    Mr. Rush. The committee stands in recess and there are 
approximately four votes on the floor which are the final votes 
for the week but we will reconvene 15 minutes after the last 
vote and the Chair really wants to thank Chairman Tenenbaum for 
her contribution to this. Thank you.
    Ms. Tenenbaum. Thank you.
    [Recess.]
    Mr. Rush. Committee will again come to order. I will once 
again repeat to you, Madam Chair, for your graciousness and for 
the time that you are spending with us this afternoon. I don't 
see any other members here so I am going to recognize myself 
for one additional question and I think the ranking member has 
one additional question and then we will-if there are no other 
members we will just adjourn and go that way.
    Every year for many years we have seen numerous bills that 
have addressed specific product safety issues. These bills have 
continued to be introduced even after the passage of last 
year's product safety reform. Just this year there are bills in 
Congress to permit sales to children to stop the sale of 
dangerous toy cigarette lighters and even to address additional 
national health threats, such as the beforehand reported upon 
Chinese drywall. The question is why are we seeing these bills? 
Why is the Commission not addressing these issues as they arise 
under its own authority and on its own initiative? And the 
second question is, do you agree that the consistent 
introduction of these bills is evidence that the Commission is 
not fully and properly carrying out its mission and how do you 
see us moving forward? Is the introduction of these bills, are 
they any kind of indication of a need or specific focus of the 
Commission or are they just members introducing bills?
    Ms. Tenenbaum. Thank you, Mr. Chairman, and what you are 
asking me is how can the CPSC be proactive in spotting hazards 
so that Congress does not have to introduce bills, and do we 
have the administrative and regulatory structure where we can 
handle them without legislation. I appreciate this question 
because it is a good one.
    First of all, as I have looked back in the history of the 
CPSC the leadership makes a tremendous difference because, you 
know, this Commission relies on voluntary standards, and it is 
a question of when you see a voluntary standard not working to 
protect the health and safety of individuals whether you move 
right in and go ahead and promulgate a mandatory rule. One of 
the things that I have observed as the Chairman for less than 3 
months is that we need to review our existing emerging hazards 
and early warning identification system and we really need to 
bolster this system with technology and resources, and our new 
technology database will give us more information then ever 
before so that we can spot these issues earlier. We need to 
initiate more investigations and increase our investigations 
and be much more proactive about them.
    There are also scientific research organizations where if 
we had the resources, we could engage them or even they could 
use private resources to do analysis and testing if we asked 
them to. We have a deference toward voluntary standards. In 
fact, the law was passed in 1981 requiring deference to 
voluntary standards unless they are proved ineffective in 
addressing the hazards. I have already noticed in my short 
tenure that there is one particular product that I have seen 
that there are no standards for yet we have already determined 
60 people have been killed by this product and we are going 
ahead and announced proposed rulemaking, ANPR, so that we will 
begin working on a standard and not just wait until the 
industry comes up with a voluntary standard.
    So all of these are ways that the CSPC will be more 
proactive and we also want to harness the new media 
opportunities that we have. Our new brand is CPSC 2.0 with the 
blog, the Facebook, the YouTube, Twitter, Recall Widget so 
consumers have up-to-date information. It is really going to be 
interesting with the new--we have the tracking labels which we 
went back to the statute and wrote a tracking label guidance 
but industry is looking at a futuristic tracking label so you 
could look at this bar code that would be universal throughout 
the world and pull it up on say your Blackberry or iPhone and 
find out everything about this product right there in the store 
or, you know, when you by looking at the bar code, and so very 
few people are using it. It is very futuristic but that is the 
kind of technology that will enable us to be more proactive.
    Mr. Rush. The Chair recognizes the ranking member, Mr. 
Radanovich.
    Mr. Radanovich. Thank you, Mr. Chairman. I appreciate that.
    Madam Chair, I want to know what the purpose of a testing 
and certification stay of enforcement is and what happens when 
the stay expires in February? Do you think that the Commission 
will be ready to implement the laws as written?
    Ms. Tenenbaum. Thank you, Ranking Member Radanovich.
    First of all, we call that the 15-month rule and that we 
were required by statute to have that month which will be what 
is reasonable testing and it will have the component part 
testing in that rule, and it is due to be promulgated in 
November, and so under the statute we will be working trying to 
get that out because I guess what I wanted to say here this 
morning and what we have prepared to try to leave in your minds 
is that we are working hard to implement the CPSIA. We are 
finding out that with every rule that we put out like the lead 
determinations which probably would have exempted the blouse 
that you showed us from any testing, the component testing 
which will exempt so many products from the manufacturing 
having to retest again on items, all of these are helping us 
resolve a lot of these questions and untie a lot of these 
knots. And so we will be having that rule shortly and I think 
that it will help tremendously with a lot of the complaints 
that you are receiving from industry.
    Mr. Radanovich. Do you think that you will be able to 
implement and enforce the law as written by then in February?
    Ms. Tenenbaum. Well, we think that after the stay of 
enforcement expires, we will have all the rules in place and 
the stay was necessary the leadership at the Commission felt at 
that time because there was so much rulemaking to do. We had 
not even approved all the third-party laboratories. The law 
says that manufacturers and private labelers have to have their 
children's products tested by a third-party laboratory.
    Mr. Radanovich. Right, right.
    Ms. Tenenbaum. And we had to approve all these laboratories 
and so to date we have approved 190 laboratories in 27 
countries. So now industry has a place to go to get their 
products tested. So we think that when the stay expires, that 
we will have these rules in place and that we will be able to 
untie a lot of these problems that industry has. That is why I 
said it was premature today then for me to----
    Mr. Radanovich. Forgive me though, I am sorry. I just don't 
have enough time here.
    Ms. Tenenbaum. I know. I am taking your time.
    Mr. Radanovich. But do you think that--will you be able to 
grant exemptions under CPSIA during--after that stay or do you 
think that you will have to post another stay?
    Ms. Tenenbaum. We are hoping that we won't have to post 
another stay.
    Mr. Radanovich. If you do, won't that be evidence of the 
need for statutory change in CPSIA in order for you to get all 
this done and be able to grant exemptions?
    Ms. Tenenbaum. Well, we believe that if we in good faith 
implement all the regulations that CPSIA requires that most of 
these issues can be resolved administratively.
    Mr. Radanovich. All right.
    Thank you, Mr. Chairman.
    Ms. Tenenbaum. Either through the product not containing 
lead or not being a product that will ever contain lead like 
cotton or paper or certain kinds of ink used in printing.
    Mr. Radanovich. Thank you, Mr. Chairman.
    Mr. Rush. Madam Chairman, we certainly appreciate your 
time.
    We have been joined by Mr. Sarbanes from Maryland and the 
Chair now recognizes Mr. Sarbanes for 2 minutes for 
questioning.
    Mr. Sarbanes. Thank you very much, Mr. Chairman. I 
appreciate the opportunity. Thanks for holding this hearing. I 
want to welcome you, Ms. Tenenbaum, to your new role and I am 
very, very close friends with a fellow named Brad Parham from 
South Carolina who I think you know and I look forward to 
getting to know you in your new position.
    I just wanted to pass along a concern. I have a number of 
bulk vendors and there is a number of bulk vendors in Maryland 
and you are, I think, aware of this provision under CPSIA 
Section 103(a) regarding the tracking of products and I guess 
they have expressed concern about that being impractical with 
respect to some of these smaller items that come packaged in 
bulk and then are distributed across the country to vending 
machines and so forth. And to the Commission's credit and to 
your credit and evidence of you moving quickly in the job to 
try to address these areas of concern, on July 20 there was a 
statement of policy issued by your office that for certain 
category of products, 103, by your interpretation would not 
apply, and they have just expressed some concern. I wanted to 
relay and get your comment on about the fact that that doesn't 
necessarily prevent action at the State level by State 
Attorneys General acting with respect to the statute, nor does 
it necessarily mean that future Commissions couldn't reverse 
its position on that, and I just wanted to get your perspective 
on how this statement of policy you see working going forward.
    Ms. Tenenbaum. Well, this is a good example of us using 
commonsense to enforce the law is our definition of tracking 
labels. The law requires manufacturers of children's products 
to have a tracking label to the extent practical on each 
product and the packaging. And so we looked at--we told the 
industry it is not one size-fits-all, that you must be able to 
ascertain and by ascertain we have to look at your product to 
see can we find the name, location and date of production, and 
can we find who manufactured it and track it down if it needed 
to be recalled. Regarding--so we got a great deal of praise 
from a number of industries because we used a commonsense 
approach to the tracking label. Regarding the Attorneys 
General, we have regular telephone conferences with them. I 
will be speaking to the Attorneys General. We want to enrich 
our relationships with them because we see the fact that this 
is such a small agency that we don't have the resources to 
enforce all of the consumer product safety laws without the 
assistance of our State partners, our local Consumer Product 
Safety Commissions, the Attorneys General and our local health 
departments. So we don't--have not found any cases where the 
Attorneys General have gotten out in front of enforcement ahead 
of the CPSC and we are encouraging them to let us get our 
rulemaking finished and work through a lot of these issues 
administratively so we don't encourage them to bring 
enforcement injunctions because under the law that is what the 
Attorneys General can do. They can see injunctive relief.
    Mr. Sarbanes. So I assume that your ongoing conversation 
collaboration with them is to sort of cultivate this 
commonsense approach at all levels?
    Ms. Tenenbaum. We are working with them and we certainly 
want everyone to have a commonsense approach. We hope no one 
gets out in front of us before we get all the rules in place 
which we hope will give relief to so many of these industries 
you are hearing from now. That is our goal to protect the 
safety of children, to keep intact the integrity of the statute 
and to work out the best way we can these issues that you are 
hearing from industry.
    Mr. Sarbanes. Thank you.
    Mr. Rush. The Chair now recognizes Mr. Stupak for 2 minutes 
for the purposes of questioning the Chairman.
    Mr. Stupak. Thank you, Mr. Chairman, and I was down in 
another hearing in telecommunications so that is why I was not 
here but I am very interested.
    Congratulations on your appointment. I look forward to 
working with you especially in my role as Chairman of Oversight 
and Investigations.
    Let me ask you about the Consumer Product Safety 
Improvement Act of 2008, and in my Northern Michigan district, 
ATVs and motorcycles are a way of life for many of us and it is 
very important to our outdoor tourism and our economy. In the 
Consumer Product Safety Improvement Act of 2008, purposefully 
included a provision to regulate youth ATVs and motorcycles, 
however it was an unintended consequence of the CPSIA that the 
equipment is also subject to provisions regulating the amount 
of lead contained in motorcycle and ATV parts. On April 3, 
2009, the CPSC voted to delay enforcement of a lead-ban on 
youth ATV and motorcycles for one year. It was not the intent 
of Congress to regulate lead content in youth ATV or 
motorcycles.
    So my question would be does the Commission have reports of 
injury or death caused by lead poisonings, I mean by the use of 
youth ATVs or motorcycles?
    Ms. Tenenbaum. We have over 900 deaths per year from ATVs 
so the industry has told me.
    Mr. Stupak. Correct, but I mean from lead.
    Ms. Tenenbaum. No.
    Mr. Stupak. Nothing from lead.
    Ms. Tenenbaum. I don't have any data on that.
    Mr. Stupak. OK, is the Commission testing the youth ATV or 
motorcycles to determine possible exposure to lead?
    Ms. Tenenbaum. We have just met with the ATV industry. The 
leaders of the industry came over and met with me last week and 
what they have reported to us is that they could make any lead 
that would be exposed to a rider inaccessible. They feel like 
they could make the handlebars inaccessible from lead by 
putting covers on them.
    Mr. Stupak. Sure.
    Ms. Tenenbaum. And handbrakes and also the seat would not 
contain lead so they have--the stay helped them come up with 
this and so that would--they are getting back with us to show 
us how they can do that, and then the other parts of the ATV 
might be considered inaccessible depending on what technology 
they can provide to make the tire stem, the brass in it 
inaccessible, the battery cables inaccessible.
    Mr. Stupak. Well, I understand all this inaccessible.
    Ms. Tenenbaum. So based on inaccessibility, that really 
would solve the issue, we think. We are working with them to 
clear that up so that they won't have to.
    Mr. Stupak. Well, I am glad you are working with them but 
if we have no death or injuries from lead exposure, why do we 
have to go through all these gyrations? Isn't it your 
responsibility to make sure that the law is properly 
implemented especially since the intent of Congress was not to 
ban these vehicles?
    Ms. Tenenbaum. We have had plenty of cases of deaths to 
children from lead exposure and hand-to-mouth.
    Mr. Stupak. But from ATVs and motorcycles?
    Ms. Tenenbaum. Well, a child could ingest lead and that is 
what the statute requires is any lead can't be.
    Mr. Stupak. Right, yes, I agree but with any law there is a 
practical application, correct?
    Ms. Tenenbaum. No question about it and that is why the 
industry is coming back to us with practical solutions and we 
think this will take care of any problem they have and they 
won't have to be regulated.
    Mr. Stupak. All right, let me ask you about this one. This 
is a recent GAO report, August, 2009, concluded that the CPSC's 
presence at U.S. ports is limited and in order to identify 
potentially unsafe products like drugs, inferior steel from 
China, you must work closely with U.S. Customs and Border 
Patrol Protection. The report also found that CPSC's activities 
at U.S. ports could be strengthened by better targeting 
incoming shipments for inspection and by improving CPSC 
coordination with the Customs and Border Patrol. As the 
Chairman of Oversight and Investigations I have spent a lot of 
years on this especially drugs coming in from other countries, 
not properly marked, handled properly and we know that FDA's 
efforts are lacking and place American lives at risk but this 
GAO report concluded that the FDA has more staff, has more 
surveillance technology, has more data on incoming shipments in 
our ports then CPSC who also has the responsibility so that was 
not a good news report by the GAO. So are you developing any 
plan to coordinate your port surveillance with other agencies 
to improve CPSC surveillance at our ports?
    Ms. Tenenbaum. We are and I reviewed the report and agree 
with those findings and will be getting back with Congress in 
October with our formal response to the report but starting 
October 1 as a result of that report, CPSC will have access to 
the Customs Import Safety Center which is called Commercial 
Targeting and Analysis Center. We will be able to place one 
full-time employee at that Center to get information that we 
need in surveying the imports coming into the country.
    Mr. Stupak. OK, currently Custom and Border Patrol doesn't 
have any authority to deny shipments at a port whether it is 
steel or whether it is drugs. That is, if a substandard 
shipment comes into the United States they may flag it but they 
can't block its entrance into the United States. What does CPSC 
intend to do when it finds a substandard or hazardous product 
at a port--right now we just stack them up in warehouses. Do 
you have any other ideas?
    Ms. Tenenbaum. We destroy them. We destroy the product. We 
have the authority to destroy it and Customs has the authority 
to flag it. They stopped several products from coming in 
recently so here is what if you look at our--we have nine 
people in 300 ports and we also have field staff, 100 field 
staff but we have nine people at the ports. We--this is a 
bigger area then just what the GAO reports because the FDA--you 
are required to send a manifest to the FDA 30 days ahead of 
time.
    Mr. Stupak. Correct.
    Ms. Tenenbaum. We are only required to receive the third-
party testing results 24 hours ahead of time under the CPSIA 
but this would be something that we need to have information 
earlier. We need through this manifest, this Commercial 
Targeting Analysis System, those are the manifests and we with 
the proper technology which we are submitting to Congress in 
our new technology plan can look and mine this data so we will 
know what is coming into the port and then if we find products 
that don't conform under the statute, the manufacturer or 
importer is required to take those products and remove them 
from the United States. If they don't have the funds and they 
have to post a bond, if they don't have the funds, we can 
destroy them. A lot of times we don't have the amount of funds 
it requires to destroy them and we might need to start 
increasing the bond to cover the cost of destroying the product 
but that is what we do with them.
    Mr. Stupak. OK, so this is new authority underneath the 
2008 law then?
    Ms. Tenenbaum. No, we have always had the authority to 
stop--well, no, this is new authority because the third-party 
laboratories certificate is new under the CPSIA.
    Mr. Stupak. Thank you, Mr. Chairman.
    Mr. Rush. This concludes the questioning of the witness and 
the Chair wants to recognize Mr. Radanovich who has a unanimous 
consent request.
    Mr. Radanovich. Thank you, Mr. Chairman. I do have another 
unanimous consent request from one other member however I would 
just like to make it a blanket unanimous consent request that 
if other members wish to submit statements they be allowed to 
do so.
    Mr. Rush. All right, well, for the record, the record will 
remain open for two weeks and members may submit questions to 
the witness or any other documentation that they want to submit 
to the record. They have two weeks from today's date in order 
to submit those questions. The record will remain open for two 
weeks.
    Ms. Tenenbaum. Thank you.
    Mr. Rush. Thank you so much, Madam Chairman, and we look 
forward to working closely with you as we move forward 
protecting America's children and families. I want to thank you 
so very much for your participation.
    Ms. Tenenbaum. Thank you. I appreciate the opportunity to 
meet with all of you and I hope to in the next few weeks meet 
with many of you individually for your personal questions.
    Mr. Rush. Thank you. Thank you so very much.
    The committee is now adjourned.
    [Whereupon, at 1:00 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED] T4096A.010
    
    [GRAPHIC] [TIFF OMITTED] T4096A.011
    
    [GRAPHIC] [TIFF OMITTED] T4096A.012
    
    [GRAPHIC] [TIFF OMITTED] T4096A.013
    
    [GRAPHIC] [TIFF OMITTED] T4096A.014
    
    [GRAPHIC] [TIFF OMITTED] T4096A.015
    
    [GRAPHIC] [TIFF OMITTED] T4096A.016
    
    [GRAPHIC] [TIFF OMITTED] T4096A.017
    
    [GRAPHIC] [TIFF OMITTED] T4096A.018
    
    [GRAPHIC] [TIFF OMITTED] T4096A.019
    
    [GRAPHIC] [TIFF OMITTED] T4096A.020
    
    [GRAPHIC] [TIFF OMITTED] T4096A.021
    
    [GRAPHIC] [TIFF OMITTED] T4096A.022
    
    [GRAPHIC] [TIFF OMITTED] T4096A.023
    
    [GRAPHIC] [TIFF OMITTED] T4096A.024
    
    [GRAPHIC] [TIFF OMITTED] T4096A.025
    
    [GRAPHIC] [TIFF OMITTED] T4096A.026
    
    [GRAPHIC] [TIFF OMITTED] T4096A.027
    
    [GRAPHIC] [TIFF OMITTED] T4096A.028
    
    [GRAPHIC] [TIFF OMITTED] T4096A.029
    
    [GRAPHIC] [TIFF OMITTED] T4096A.030
    
    [GRAPHIC] [TIFF OMITTED] T4096A.031
    
    [GRAPHIC] [TIFF OMITTED] T4096A.032
    
    [GRAPHIC] [TIFF OMITTED] T4096A.033
    
    [GRAPHIC] [TIFF OMITTED] T4096A.034
    
    [GRAPHIC] [TIFF OMITTED] T4096A.035
    
    [GRAPHIC] [TIFF OMITTED] T4096A.036
    
    [GRAPHIC] [TIFF OMITTED] T4096A.037
    
    [GRAPHIC] [TIFF OMITTED] T4096A.038
    
    [GRAPHIC] [TIFF OMITTED] T4096A.039
    
    [GRAPHIC] [TIFF OMITTED] T4096A.040
    
    [GRAPHIC] [TIFF OMITTED] T4096A.041
    
    [GRAPHIC] [TIFF OMITTED] T4096A.042
    
    [GRAPHIC] [TIFF OMITTED] T4096A.043
    
    [GRAPHIC] [TIFF OMITTED] T4096A.044
    
    [GRAPHIC] [TIFF OMITTED] T4096A.045
    
    [GRAPHIC] [TIFF OMITTED] T4096A.046
    
    [GRAPHIC] [TIFF OMITTED] T4096A.047
    
    [GRAPHIC] [TIFF OMITTED] T4096A.048
    
    [GRAPHIC] [TIFF OMITTED] T4096A.049
    
    [GRAPHIC] [TIFF OMITTED] T4096A.050
    
    [GRAPHIC] [TIFF OMITTED] T4096A.051
    
    [GRAPHIC] [TIFF OMITTED] T4096A.052
    
    [GRAPHIC] [TIFF OMITTED] T4096A.053
    
    [GRAPHIC] [TIFF OMITTED] T4096A.054
    
    [GRAPHIC] [TIFF OMITTED] T4096A.055
    
    [GRAPHIC] [TIFF OMITTED] T4096A.056
    
    [GRAPHIC] [TIFF OMITTED] T4096A.057
    
    [GRAPHIC] [TIFF OMITTED] T4096A.058
    
    [GRAPHIC] [TIFF OMITTED] T4096A.059
    
    [GRAPHIC] [TIFF OMITTED] T4096A.060
    
    [GRAPHIC] [TIFF OMITTED] T4096A.061
    
    [GRAPHIC] [TIFF OMITTED] T4096A.062
    
    [GRAPHIC] [TIFF OMITTED] T4096A.063
    
    [GRAPHIC] [TIFF OMITTED] T4096A.064
    
    [GRAPHIC] [TIFF OMITTED] T4096A.065
    
    [GRAPHIC] [TIFF OMITTED] T4096A.066
    
    [GRAPHIC] [TIFF OMITTED] T4096A.067
    
    [GRAPHIC] [TIFF OMITTED] T4096A.068
    
    [GRAPHIC] [TIFF OMITTED] T4096A.069
    
    [GRAPHIC] [TIFF OMITTED] T4096A.070
    
    [GRAPHIC] [TIFF OMITTED] T4096A.071
    
    [GRAPHIC] [TIFF OMITTED] T4096A.072
    
    [GRAPHIC] [TIFF OMITTED] T4096A.073
    
    [GRAPHIC] [TIFF OMITTED] T4096A.074
    
    [GRAPHIC] [TIFF OMITTED] T4096A.075
    
    [GRAPHIC] [TIFF OMITTED] T4096A.076
    
    [GRAPHIC] [TIFF OMITTED] T4096A.077
    
    [GRAPHIC] [TIFF OMITTED] T4096A.078
    
    [GRAPHIC] [TIFF OMITTED] T4096A.079
    
    [GRAPHIC] [TIFF OMITTED] T4096A.080
    
    [GRAPHIC] [TIFF OMITTED] T4096A.081
    
    [GRAPHIC] [TIFF OMITTED] T4096A.082
    
    [GRAPHIC] [TIFF OMITTED] T4096A.083
    
    [GRAPHIC] [TIFF OMITTED] T4096A.084
    
    [GRAPHIC] [TIFF OMITTED] T4096A.085
    
    [GRAPHIC] [TIFF OMITTED] T4096A.086
    
    [GRAPHIC] [TIFF OMITTED] T4096A.087
    
    [GRAPHIC] [TIFF OMITTED] T4096A.088
    
    [GRAPHIC] [TIFF OMITTED] T4096A.089
    
    [GRAPHIC] [TIFF OMITTED] T4096A.090
    
    [GRAPHIC] [TIFF OMITTED] T4096A.091
    
    [GRAPHIC] [TIFF OMITTED] T4096A.092
    
    [GRAPHIC] [TIFF OMITTED] T4096A.093
    
    [GRAPHIC] [TIFF OMITTED] T4096A.094
    
    [GRAPHIC] [TIFF OMITTED] T4096A.095
    
    [GRAPHIC] [TIFF OMITTED] T4096A.096
    
    [GRAPHIC] [TIFF OMITTED] T4096A.097
    
    [GRAPHIC] [TIFF OMITTED] T4096A.098
    
    [GRAPHIC] [TIFF OMITTED] T4096A.099
    
    [GRAPHIC] [TIFF OMITTED] T4096A.100
    
    [GRAPHIC] [TIFF OMITTED] T4096A.101
    
    [GRAPHIC] [TIFF OMITTED] T4096A.102
    
    [GRAPHIC] [TIFF OMITTED] T4096A.103
    
    [GRAPHIC] [TIFF OMITTED] T4096A.104
    
    [GRAPHIC] [TIFF OMITTED] T4096A.105
    
    [GRAPHIC] [TIFF OMITTED] T4096A.106
    
    [GRAPHIC] [TIFF OMITTED] T4096A.108
    
    [GRAPHIC] [TIFF OMITTED] T4096A.109
    
    [GRAPHIC] [TIFF OMITTED] T4096A.110
    
    [GRAPHIC] [TIFF OMITTED] T4096A.111
    
    [GRAPHIC] [TIFF OMITTED] T4096A.112
    
    [GRAPHIC] [TIFF OMITTED] T4096A.113
    
    [GRAPHIC] [TIFF OMITTED] T4096A.114
    
    [GRAPHIC] [TIFF OMITTED] T4096A.115
    
    [GRAPHIC] [TIFF OMITTED] T4096A.116
    
    [GRAPHIC] [TIFF OMITTED] T4096A.117
    
    [GRAPHIC] [TIFF OMITTED] T4096A.118
    
    [GRAPHIC] [TIFF OMITTED] T4096A.119
    
    [GRAPHIC] [TIFF OMITTED] T4096A.120
    
    [GRAPHIC] [TIFF OMITTED] T4096A.121
    
    [GRAPHIC] [TIFF OMITTED] T4096A.122
    
    [GRAPHIC] [TIFF OMITTED] T4096A.123
    
    [GRAPHIC] [TIFF OMITTED] T4096A.124
    
    [GRAPHIC] [TIFF OMITTED] T4096A.125
    
    [GRAPHIC] [TIFF OMITTED] T4096A.126
    
    [GRAPHIC] [TIFF OMITTED] T4096A.127
    
    [GRAPHIC] [TIFF OMITTED] T4096A.128
    
    [GRAPHIC] [TIFF OMITTED] T4096A.129
    
    [GRAPHIC] [TIFF OMITTED] T4096A.130
    
    [GRAPHIC] [TIFF OMITTED] T4096A.131
    
    [GRAPHIC] [TIFF OMITTED] T4096A.132
    
    [GRAPHIC] [TIFF OMITTED] T4096A.133
    
    [GRAPHIC] [TIFF OMITTED] T4096A.134
    
    [GRAPHIC] [TIFF OMITTED] T4096A.135
    
    [GRAPHIC] [TIFF OMITTED] T4096A.136
    
    [GRAPHIC] [TIFF OMITTED] T4096A.137
    
    [GRAPHIC] [TIFF OMITTED] T4096A.138
    
    [GRAPHIC] [TIFF OMITTED] T4096A.139
    
    [GRAPHIC] [TIFF OMITTED] T4096A.140
    
    [GRAPHIC] [TIFF OMITTED] T4096A.141
    
    [GRAPHIC] [TIFF OMITTED] T4096A.142
    
    [GRAPHIC] [TIFF OMITTED] T4096A.143
    
    [GRAPHIC] [TIFF OMITTED] T4096A.144
    
    [GRAPHIC] [TIFF OMITTED] T4096A.145
    
    [GRAPHIC] [TIFF OMITTED] T4096A.146
    
    [GRAPHIC] [TIFF OMITTED] T4096A.147
    
    [GRAPHIC] [TIFF OMITTED] T4096A.148
    
    [GRAPHIC] [TIFF OMITTED] T4096A.149
    
    [GRAPHIC] [TIFF OMITTED] T4096A.150
    
    [GRAPHIC] [TIFF OMITTED] T4096A.151
    
    [GRAPHIC] [TIFF OMITTED] T4096A.152
    
    [GRAPHIC] [TIFF OMITTED] T4096A.153
    
    [GRAPHIC] [TIFF OMITTED] T4096A.154
    
    [GRAPHIC] [TIFF OMITTED] T4096A.155
    
    [GRAPHIC] [TIFF OMITTED] T4096A.156
    
    [GRAPHIC] [TIFF OMITTED] T4096A.157
    
    [GRAPHIC] [TIFF OMITTED] T4096A.158
    
    [GRAPHIC] [TIFF OMITTED] T4096A.159
    
    [GRAPHIC] [TIFF OMITTED] T4096A.160
    
    [GRAPHIC] [TIFF OMITTED] T4096A.161
    
    [GRAPHIC] [TIFF OMITTED] T4096A.162
    
    [GRAPHIC] [TIFF OMITTED] T4096A.163
    
    [GRAPHIC] [TIFF OMITTED] T4096A.164
    
    [GRAPHIC] [TIFF OMITTED] T4096A.165
    
    [GRAPHIC] [TIFF OMITTED] T4096A.166
    
    [GRAPHIC] [TIFF OMITTED] T4096A.167
    
    [GRAPHIC] [TIFF OMITTED] T4096A.168
    
    [GRAPHIC] [TIFF OMITTED] T4096A.169
    
    [GRAPHIC] [TIFF OMITTED] T4096A.170
    
    [GRAPHIC] [TIFF OMITTED] T4096A.171
    
    [GRAPHIC] [TIFF OMITTED] T4096A.172
    
    [GRAPHIC] [TIFF OMITTED] T4096A.173
    
    [GRAPHIC] [TIFF OMITTED] T4096A.174
    
    [GRAPHIC] [TIFF OMITTED] T4096A.175
    
    [GRAPHIC] [TIFF OMITTED] T4096A.176
    
    [GRAPHIC] [TIFF OMITTED] T4096A.177
    
    [GRAPHIC] [TIFF OMITTED] T4096A.178
    
    [GRAPHIC] [TIFF OMITTED] T4096A.179
    
    [GRAPHIC] [TIFF OMITTED] T4096A.180
    
    [GRAPHIC] [TIFF OMITTED] T4096A.181
    
    [GRAPHIC] [TIFF OMITTED] T4096A.182
    
    [GRAPHIC] [TIFF OMITTED] T4096A.183
    
    [GRAPHIC] [TIFF OMITTED] T4096A.184
    
    [GRAPHIC] [TIFF OMITTED] T4096A.185
    
    [GRAPHIC] [TIFF OMITTED] T4096A.186
    
    [GRAPHIC] [TIFF OMITTED] T4096A.187
    
    [GRAPHIC] [TIFF OMITTED] T4096A.188
    
    [GRAPHIC] [TIFF OMITTED] T4096A.189
    
    [GRAPHIC] [TIFF OMITTED] T4096A.190
    
    [GRAPHIC] [TIFF OMITTED] T4096A.191
    
    [GRAPHIC] [TIFF OMITTED] T4096A.192
    
    [GRAPHIC] [TIFF OMITTED] T4096A.193
    
    [GRAPHIC] [TIFF OMITTED] T4096A.194
    
    [GRAPHIC] [TIFF OMITTED] T4096A.195
    
    [GRAPHIC] [TIFF OMITTED] T4096A.196
    
    [GRAPHIC] [TIFF OMITTED] T4096A.197
    
    [GRAPHIC] [TIFF OMITTED] T4096A.198
    
    [GRAPHIC] [TIFF OMITTED] T4096A.199
    
    [GRAPHIC] [TIFF OMITTED] T4096A.200
    
    [GRAPHIC] [TIFF OMITTED] T4096A.201
    
    [GRAPHIC] [TIFF OMITTED] T4096A.202
    
    [GRAPHIC] [TIFF OMITTED] T4096A.203
    
    [GRAPHIC] [TIFF OMITTED] T4096A.204
    
    [GRAPHIC] [TIFF OMITTED] T4096A.205
    
    [GRAPHIC] [TIFF OMITTED] T4096A.206
    
    [GRAPHIC] [TIFF OMITTED] T4096A.207
    
    [GRAPHIC] [TIFF OMITTED] T4096A.208
    
    [GRAPHIC] [TIFF OMITTED] T4096A.209
    
    [GRAPHIC] [TIFF OMITTED] T4096A.210
    
    [GRAPHIC] [TIFF OMITTED] T4096A.211
    
    [GRAPHIC] [TIFF OMITTED] T4096A.212
    
    [GRAPHIC] [TIFF OMITTED] T4096A.213
    
    [GRAPHIC] [TIFF OMITTED] T4096A.214
    
    [GRAPHIC] [TIFF OMITTED] T4096A.215
    
    [GRAPHIC] [TIFF OMITTED] T4096A.216
    
    [GRAPHIC] [TIFF OMITTED] T4096A.217
    
    [GRAPHIC] [TIFF OMITTED] T4096A.218
    
    [GRAPHIC] [TIFF OMITTED] T4096A.219
    
    [GRAPHIC] [TIFF OMITTED] T4096A.220
    
    [GRAPHIC] [TIFF OMITTED] T4096A.221
    
    [GRAPHIC] [TIFF OMITTED] T4096A.222
    
    [GRAPHIC] [TIFF OMITTED] T4096A.223
    
    [GRAPHIC] [TIFF OMITTED] T4096A.224
    
    [GRAPHIC] [TIFF OMITTED] T4096A.225
    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
